<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL 
                               YEAR 2016

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:32 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. John Boozman (chairman) presiding.
    Present: Senators Boozman, Lankford, and Coons.

                           FEDERAL JUDICIARY

STATEMENT OF HON. JULIA SMITH GIBBONS, UNITED STATES 
            COURT OF APPEALS


               opening statement of senator john boozman


    Senator Boozman. Good morning. The subcommittee will come 
to order.
    As we begin this important hearing to review the budget 
request of the Federal judiciary, we welcome our witnesses, 
Judge Julia Gibbons, Chair of the Budget Committee of the 
Judicial Conference of the U.S.; and James Duff, Director of 
the Administrative Office of the U.S. Courts.
    Thank you so much for being here today. We look forward to 
your testimony.
    We all recognize the importance of a fair and independent 
judiciary. That independence comes with a great responsibility 
and a commitment to the preservation of our rights. Your work 
helps to ensure we have a society governed by the rule of law 
as envisioned by the Framers of our Constitution.
    As members of the Appropriations Committee, it is our duty 
to ensure the hard-earned tax dollars from millions of 
Americans are spent wisely. We appreciate that the judiciary 
takes its responsibility to be good stewards of the taxpayers' 
money very, very seriously.
    Cost containment is not new to judiciary. Recognizing the 
likelihood of future tight budgets, projected increases, and 
fixed costs, the Judicial Conference unanimously endorsed a 
comprehensive cost-containment strategy that called for 
examining more than 50 court operations for reducing expenses.
    Since then, the judiciary has focused on three areas that 
have the greatest potential for significant long-term savings: 
rent, personnel expenses, and information technology. During 
the past 10 years, the judiciary's cost-containment efforts 
have resulted in a cost avoidance of nearly $1.5 billion 
relative to projected requirements.
    It is unfortunate that the President's budget does not 
reflect the same commitment to reducing the cost of government. 
In his proposal for fiscal year 2016, the President wants to 
create $2.1 trillion new taxes, increase spending by 65 
percent, and add $8.5 trillion to the debt over the next 10 
years. While hardworking Arkansans have been forced to cut 
their spending significantly the past few years, the President 
has been unwilling to do the same in Washington.
    Under the Budget Control Act, the discretionary spending 
caps for fiscal year 2016 limit nondefense spending to $493 
billion. This represents an increase of only $1.1 billion over 
the 2015 level for all nondefense departments and agencies.
    The judiciary is requesting an increase of 3.9 percent for 
fiscal year 2016. While we recognize the strides you have made 
to ensure that you spend your resources effectively and 
efficiently, it is important to note that all requests for 
funding must be considered in the broader context of the fiscal 
constraints facing the Federal Government.
    The American people want a government that works for them, 
not against them. They want us to curb Washington's wasteful 
spending habits; make the Government more efficient, effective, 
and accountable; and pursue policies that create economic 
opportunities for everyone. Again, we appreciate the fact that 
you all as an agency have worked very hard to do that.
    These are the priorities of the American people. They will 
be reflected in the critical oversight we conduct as we 
consider the fiscal year 2016 budget request for all of the 
agencies within our jurisdiction.
    Judge Gibbons and Director Duff, I look forward to hearing 
from you this morning. But before that, I will first ask 
Senator Coons to proceed with his opening statement.


               statement of senator christopher a. coons


    Senator Coons. Thank you, Chairman Boozman.
    I would like to welcome our witnesses, Judge Gibbons and 
Director Duff. I am thankful for your years of service and look 
forward to your testimony today.
    As we all know, our citizens rely on a Federal court system 
that guarantees the rights of all Americans, ensures the right 
to a defense, and secures public safety. I would argue that our 
Federal court system is the envy of the world and the gold 
standard for this important independent branch of our 
constitutional structure.
    So I welcome today's opportunity to examine the judiciary's 
budget request and discuss how we can best work together to 
help our Federal courts fulfill their vital and broad 
responsibilities.
    As Chairman Boozman mentioned, I look forward to hearing 
about your cost-containment strategies and reductions, and 
about how proactive planning has made it possible for the 
Federal judiciary to be prepared for what has been a very 
difficult budget environment over the last couple of years.
    As you well know, last year, when I served as chairman of 
the Judiciary Subcommittee on the Courts, I heard first hand 
and in detail the significantly harmful impacts that 
sequestration had on Federal courts, on their operations, on 
their staffing, and, in particular, I will just draw attention 
for one moment to this, on the Public Defender Services. 
Sequester reduced staffing in Federal Defender Services by 11 
percent. There were widespread furloughs, a loss of many senior 
and seasoned staff. And yet, it was troubling, even ironic, 
that this happened on the 50th anniversary of Gideon v. 
Wainwright, a decision by the Supreme Court that established a 
right to counsel.
    And as a consequence of the protected right to counsel, the 
deep cuts actually failed to achieve meaningful savings, 
because Federal defendants were entitled to representation, 
which was provided by panel attorneys. So there was both an 
enormous loss of the experience in the Federal Public Defenders 
Service and no significant reduction in spending, which is yet 
another example of penny-wise and pound-foolish.
    Sequestration also resulted in significant cuts in 
courthouse security, as well as in mental health testing and 
treatment services. The 5 percent sequester cut in fiscal year 
2013 came on top of several years of flat budgets, resulting in 
2,700 fewer workers overall--in clerks of court, probation, 
pretrial services, a roughly 12 percent cut in the overall 
workforce.
    I am encouraged the judiciary now seems to be on a somewhat 
recovering financial footing. As a result of last year, courts 
and Federal defender offices are able to backfill some of these 
many vacancies. But as we enter another appropriations cycle, 
in my view, we shouldn't turn back the clock and impose another 
round of senseless and devastating cuts through sequestration.
    There is a request before us for a slight increase of $264 
million out of a total budget of $6.96 billion. This keeps pace 
with recent requests that would allow the courts to maintain 
their current level of services.
    I am looking forward very much to hearing your plans for 
how to prepare for this environment, which, frankly, to be 
blunt, is not encouraging. In the fiscal year 2016 funding 
forecast, the budgetary constraints that remain in place 
suggest that we will have a difficult environment.
    So I look forward to hearing your testimony about cost-
containment, and I hope we can work together to ensure that we 
come up with a responsible budget that continues to invest in 
this vital constitutional function.
    Thank you.
    Senator Boozman. Thank you, Senator Coons.
    And thank you, Senator Lankford, for being here.
    In the interest of time, I will ask our witnesses to 
provide us with their testimony, and then subcommittee members 
will proceed with their questions.
    Judge Gibbons, I invite you to present your remarks on 
behalf of the Federal Judiciary Conference.


             summary statement of hon. julia smith gibbons


    Judge Gibbons. Thank you, Mr. Chairman. Chairman Boozman, 
Senator Coons, Senator Lankford, as you know, I am here today 
to testify on behalf of the judiciary's fiscal year 2016 
funding needs.
    By way of background, I have been a Federal judge since 
1983, spending 19 years in the District Court and the last 13 
on the Court of Appeals. With me today, of course, is Jim Duff, 
our new, although he has been with us before, director of the 
Administrative Office of the Courts.


                   fiscal year 2015 judiciary funding


    We have not had a hearing before this panel in several 
years, and we appreciate very much your holding this hearing 
today. At the outset, I thank you for the funding provided to 
us in the 2015 omnibus appropriations bill, the 2.8 percent 
overall increase allows us to backfill some vacancies in clerks 
of court, probation, and pretrial services offices, and Federal 
defender organizations, and allows us enough funding to meet 
other operational needs.
    We know the funding constraints you faced and greatly 
appreciate your making us a funding priority.


                      role of the judicial branch


    Every year, I ask that the Appropriations committees take 
into account the nature and importance of the work of the 
Federal courts. This plea takes on greater urgency as the 
Federal budget tightens and as deficit reduction proposals are 
considered that make cuts to nondefense discretionary spending 
below the current spending caps.
    The scope and volume of our work is dictated by the 
functions assigned to us by the Constitution and by statute. We 
must adjudicate all cases filed in our courts; protect the 
community by our supervision of defendants who are awaiting 
trial and who are on post-conviction release; provide defense 
counsel for indigent defendants; pay juror costs; and ensure 
the safety and security of judges, court staff, litigants, and 
the public in court facilities.
    Sequestration with cuts in 2013 had a devastating impact, 
and we fear a return to sharply reduced funding levels and the 
cutbacks that would necessitate. We ask that you take into 
account the unique role of the Federal courts in our democracy 
and make the judiciary a funding priority again for 2016.


                            cost containment


    Turning to our own efforts to contain costs, which we 
appreciate both of you recognizing in your statements, we 
continue that effort in order to position ourselves for future 
fiscal realities. We have had some real cost-containment 
success, but we know there is more work to do.
    My written testimony discusses in detail our efforts to 
reduce the judiciary space footprint. We are pursuing a 
multifaceted approach to space reduction, including plans to 
reduce our footprint by 3 percent by the end of fiscal year 
2018. We are on track to meet that goal.


               nashville courthouse and capital security


    Director Duff will discuss these topics in more detail, but 
I want to add my strong support for two items in the 
President's 2016 General Services Administration (GSA) budget 
request, $181.5 million for a new Federal courthouse in 
Nashville, and $20 million for the Capital Security Program. 
Nashville is our top space priority, and we need a new 
courthouse to address significant security and operational 
deficiencies. Capital security funding has enabled us to 
address security deficiencies in courthouses where physical 
renovations are feasible. We would hope that these two items 
would be funded.


                    fiscal year 2016 budget request


    Turning to our 2016 budget request, we are seeking $7 
billion in discretionary appropriations, a 3.9 percent 
increase. We believe the request achieves our goal of holding 
down cost growth, where possible, while also investing in 
several important new initiatives, most of which, in fact, have 
the potential to enable us to realize more savings down the 
road.
    Our program enhancements, which total $56 million, include 
$26 million for IT initiatives related to national hosting of 
court IT systems and replacing our aging email system.
    We request $15 million for our probation program to expand 
the use of best practices to reduce recidivism.
    We seek $4.6 million to increase the number of court 
security officers at Federal courthouses, based on the U.S. 
Marshals' security recommendation.
    We request a $6 per hour increase to $134 to the rate paid 
to private practice attorneys appointed to represent indigent 
defendants, and a $10 increase to $50 for the daily rate for 
jury service.


                            closing remarks


    We thank you again for having this hearing today. As you 
make your decisions on 2016 funding, we ask that you take into 
account our unique constitutional role. In return, we commit to 
you that we will continue to be good stewards of the taxpayers' 
dollars, cutting costs where possible, spending each dollar 
wisely, and making smart investments to achieve long-term 
savings.
    I would ask that my statement be placed in the record, 
along with statements of the Administrative Office of the U.S. 
Courts, the Federal Judicial Center, the Sentencing Commission, 
the Court of Appeals for the Federal Circuit, and the Court of 
International Trade. I look forward to answering your 
questions.
    [The statements follow:]
             Prepared Statement of Hon. Julia Smith Gibbons
                              introduction
    Chairman Boozman, Senator Coons, and members of the subcommittee, I 
am Judge Julia Gibbons of the Sixth Circuit Court of Appeals. Our court 
sits in Cincinnati, Ohio, and my resident chambers are in Memphis, 
Tennessee. As the Chair of the Judicial Conference Committee on the 
Budget, I will testify on the judiciary's appropriations requirements 
for fiscal year 2016. I believe our fiscal year 2016 request of $7.0 
billion in discretionary appropriations achieves our goal of holding 
down cost growth across the judiciary where possible while also 
investing in several important new information technology and program 
initiatives that will improve judiciary operations. My testimony will 
provide details on those initiatives, discuss recently enacted fiscal 
year 2015 judiciary appropriations, and provide an update on our cost-
containment program, including a detailed discussion of efforts 
underway to reduce the judiciary's space footprint. This is my eleventh 
year testifying before Congress on behalf of the Federal judiciary and 
my first appearance before this Financial Services and General 
Government panel since 2008. Appearing with me today is James C. Duff, 
Director of the Administrative Office of the United States Courts. We 
are very appreciative that you are holding this hearing today.
                       statements for the record
    In addition to my statement and Director Duff's, I ask that the 
entire statements of the Federal Judicial Center, the U.S. Sentencing 
Commission, the U.S. Court of Appeals for the Federal Circuit, and the 
U.S. Court of International Trade be included in the hearing record.
               fiscal year 2015 funding for the judiciary
    Chairman Boozman and Senator Coons, I begin today by thanking 
Congress for the funding the judiciary received in the ``Consolidated 
and Further Continuing Appropriations Act of 2015,'' the omnibus 
spending measure that funds most of the Federal Government for fiscal 
year 2015. The omnibus bill provided the judiciary with a 2.8 percent 
overall increase in discretionary appropriations above fiscal year 
2014, essentially equal to the judiciary's re-estimated request and 
sufficient to meet our full funding needs. The 2.8 percent increase 
builds on the 5.1 percent appropriations increase Congress provided the 
judiciary for fiscal year 2014 and will enable the courts to recover 
from the harmful effects of the 2013 sequestration cuts. It will allow 
us to backfill some vacancies in clerks of court, probation and 
pretrial services offices, and Federal defender organizations, and will 
provide sufficient funding to meet operational costs, juror expenses, 
and court security requirements for fiscal year 2015. We are aware that 
this subcommittee had a 1 percent cut in its allocation below fiscal 
year 2014 for constructing a final fiscal year 2015 bill, and we are 
greatly appreciative that the judiciary was again treated as funding 
priority, receiving an overall 2.8 percent increase as I just 
mentioned.
                      role of the judicial branch
    Each year in my testimony before Congress on the judiciary's budget 
request, I ask that the Appropriations Committees take into account the 
nature and importance of the work of the Federal courts, and I do so 
again this year. This plea takes on a greater urgency as the Federal 
budget tightens and as proposals for further deficit reduction for 
fiscal year 2016 and beyond are considered that make cuts to non-
defense discretionary spending below the current spending caps.
    The judiciary performs constitutionally-mandated core government 
functions that are a pillar of our democratic system of government. The 
scope and volume of our work is dictated by the functions assigned to 
us by the Constitution and by statute. We must adjudicate all criminal, 
bankruptcy, civil, and appellate cases that are filed with the courts; 
we must protect the community by supervising defendants awaiting trial 
and offenders on post-conviction release; we must provide qualified 
defense counsel for defendants who cannot afford representation; we 
must pay jurors for costs associated with performing their civic duty; 
and we must ensure the safety and security of judges, court staff, 
litigants, and the public in Federal court facilities. We look to 
Congress to provide us with the resources we need to accomplish this 
broad mission.
    While Congress has made the judiciary a funding priority in fiscal 
years 2014 and 2015, we remain concerned about the longer-term funding 
prospects for the judiciary in what will be a constrained Federal 
budget environment for the foreseeable future. As you know, the overall 
discretionary spending cap provides essentially no growth from fiscal 
year 2015 to 2016, increasing only about $2.0 billion (0.2 percent) to 
$1.017 trillion. Beyond fiscal year 2016, assuming the continuation of 
current law, the spending caps will rise by only about 2.4 percent 
annually through fiscal year 2021, which may not be sufficient to keep 
pace with inflation and to meet other critical requirements. This may 
be a best-case scenario, given some of the additional deficit reduction 
proposals being discussed. Sequestration cuts in 2013 had a devastating 
impact on Federal court operations, and we fear a return to sharply 
reduced funding levels and the cutbacks it would necessitate. As I 
mentioned at the outset of my testimony, Congress has made it possible 
for the judiciary to recover from sequestration and we ask you to take 
into account the nature and importance of our work and to make the 
judicial branch a funding priority again in fiscal year 2016, as well 
as in future years.
                            cost containment
    For more than 10 years we have been focused on containing costs in 
the judiciary's budget and we have achieved significant success. In 
fact, since the beginning of our formal cost containment program in 
2005, the judiciary has realized a cost avoidance of nearly $1.5 
billion relative to our projected requirements, attributable primarily 
to cost-containment policies put in place, as well as other factors. 
Changes made to date have reduced current and future costs for: rent, 
information technology, magistrate judges, compensation of court staff 
and law clerks, law books, probation and pretrial services supervision 
work, and other areas. And we have achieved this cost containment 
without harming court operations. But we recognize there is more work 
to be done.
    We are now working on a new round of cost-containment initiatives 
that may be more controversial within the judiciary, more difficult to 
implement quickly, and could result in significant change within the 
judiciary. But we believe these new initiatives are essential to 
positioning the judiciary for what likely will continue to be a 
constrained Federal budget environment going forward. We continue to 
expand the use of shared administrative services among the courts of 
appeals, district courts, bankruptcy courts, probation and pretrial 
services offices, and Federal defender organizations to reduce 
duplicative human resources, procurement, financial management, and 
information technology activities. Forty-two percent of all courts have 
formal sharing arrangements of some kind, and many others have informal 
or temporary arrangements. The decision to migrate to a shared 
administrative services model is up to each circuit or district, and we 
are exploring ways in which we can increase shared administrative 
services, including offering incentives. We also are exploring 
voluntary consolidation of offices and other longer-term changes that 
would further reduce growth in personnel and operational costs.
    As we continue our efforts to reduce cost growth in the judiciary's 
budget, I emphasize that no amount of cost containment will offset 
budget cuts or even flat funding in fiscal year 2016. Our budget 
request is reflective of the cost-containment policies we have put in 
place and is the amount we require to fulfill our mission.
                reducing the judiciary's space footprint
    With strong controls in place to limit the growth in our space rent 
costs, including revamping our courthouse planning process and 
instituting new procedures to identify billing errors, we are now 
focusing on reducing the judiciary's overall space footprint and we are 
making real progress in this area. At its September 2013 session, the 
Judicial Conference approved three new initiatives to facilitate space 
reduction: (1) a 3 percent space reduction target by the end of fiscal 
year 2018 subject to certain exclusions such as new courthouse 
construction, renovation, or alterations projects approved by Congress; 
(2) a ``no net new'' policy in which any increase in square footage 
within a circuit must be offset by an equivalent reduction in square 
footage identified within that circuit in the same fiscal year; and (3) 
requiring each of the 12 judicial councils to formulate a space 
management plan articulating how the new space reduction policy will be 
implemented.
    I am pleased to report to the subcommittee significant progress on 
our space reduction efforts. The judiciary's 3 percent space reduction 
goal aims to reduce our space footprint by 870,305 square feet by the 
end of fiscal year 2018, which is 3 percent of the 2013 space baseline 
level of 29,010,183 square feet. The space reduction target was 
prorated among the 12 regional circuits nationwide to ensure space 
reduction is fair and equitable across the country. As of October 2014, 
the judiciary has reduced space on a national basis by nearly 1 
percent--that is 242,403 square feet of space that has been removed 
from the courts' rent bill, resulting in an annual rent cost avoidance 
of $5.8 million to the judiciary. We are on track to accomplish the 
full 3 percent reduction by the end of fiscal year 2018.
    The judiciary appreciates the funding provided by Congress to 
support our cost-containment efforts, particularly those related to 
space reduction. Up-front costs to support construction, renovation, 
and information technology are critical to the success of this effort. 
Our fiscal year 2016 request includes $25.0 million for space reduction 
efforts. Space reduction projects requiring renovations each undergo a 
two-step process: first, an architectural and engineering analysis is 
completed on potential projects to determine if space reduction is 
feasible and cost effective; and second, if the architectural and 
engineering analysis identifies reasonable savings, funding is made 
available for the implementation phase to design and construct the new 
space. It is important to note that not all projects make it beyond the 
architectural and engineering analysis step to implementation. The 
judiciary pursues projects that yield the greatest savings with the 
quickest return on investment.
    A key component of our space reduction effort is our Integrated 
Workplace Initiative (IWI), which seeks to create a smaller and more 
efficient workplace that reflects changing work practices, such as 
mobile work or telework for some court employees. An example of an area 
where an IWI project would be especially useful is a probation or 
pretrial services office. Some probation officers require less space 
now because they use mobile devices while visiting clients and working 
in the field. As a result, some probation offices can reduce the amount 
of commercial leased space that they occupy, or they could move out of 
commercial leased space and into government owned courthouses and 
Federal buildings, while occupying less space than previously needed. 
This is just one example. We currently have 10 IWI projects in the 
design phase in the courts and an eleventh in the implementation phase.
    In addition, we have an IWI project underway right here in 
Washington, DC, at the Administrative Office of the United States 
Courts (AO). This is a national demonstration project that involves co-
locating the nearly 70 staff from four facilities and security office 
divisions into one space on the first floor of the Thurgood Marshall 
Federal Judiciary Building. The total occupied space will be reduced by 
up to 25 percent and the design fully incorporates IWI mobility 
concepts. The space will include systems furniture and movable walls to 
allow for flexible space configuration. The design process for this 
project is now underway. The project will serve as a working example 
for judges and court unit executives who travel to Washington, DC to 
experience first-hand what an IWI project looks like and to then 
consider something similar for their court.
    I will close on this topic by assuring the subcommittee that we are 
working hard to reduce the judiciary's space inventory. The General 
Services Administration's (GSA) cooperation is essential to our ability 
to reduce space and to date GSA has been working collaboratively with 
us on our space reduction efforts.
           nashville courthouse and capital security funding
    Director Duff addresses these topics in more detail in his written 
testimony, but I want to add my strong support for two items included 
in the President's 2016 budget under the General Services 
Administration. First, the President's budget includes $181.5 million 
for constructing a new courthouse in Nashville, Tennessee, the Judicial 
Conference's top space priority. The Nashville courthouse project has 
been on the judiciary's Five-Year Courthouse Construction Project Plan 
for nearly 20 years and a new courthouse is needed to address severe 
security, space, and operational deficiencies in the existing facility.
    The second item is the $20 million in the President's budget for 
the judiciary Capital Security Program. This program was designed to 
address serious security deficiencies in existing courthouse buildings 
where physical renovations are viable alternatives to new courthouse 
construction. Eight Capital Security Program projects have been funded 
with appropriations provided in fiscal years 2012, 2013, and 2015. 
Fiscal year 2016 funding would be utilized to address security 
deficiencies at Federal courthouses in Raleigh, North Carolina and 
Alexandria, Louisiana. The Capital Security Program has been a 
valuable, cost-effective solution to achieving greater security at 
courthouses with significant security deficiencies.
    I respectfully ask that the subcommittee fund these two items in 
fiscal year 2016.
              judiciary's fiscal year 2016 budget request
    The judiciary's fiscal year 2016 budget request of $7.0 billion in 
discretionary appropriations reflects an overall 3.9 percent increase 
above fiscal year 2015 to support the constitutional and statutory 
mission of the Federal courts. As I mentioned at the outset of my 
testimony, we believe the request achieves our goal of holding down 
cost growth across the judiciary where possible, while also investing 
in several important new information technology and program initiatives 
that will improve judiciary operations. With the sequestration cuts of 
2013 behind us and our financial position now on more solid footing, we 
believe it is the right time to make these investments. The judiciary's 
requested increase of $264.5 million includes $209.0 million for 
adjustments to base for standard pay and non-pay changes, and a total 
of $55.5 million for program enhancements. I will now summarize the 
fiscal year 2016 requests for our four major accounts and discuss base 
adjustments needed to maintain current services. In the next section of 
my testimony I discuss in detail our program enhancements. A more 
detailed summary of our fiscal year 2016 request is provided in 
Appendix A.
    The judiciary's largest account, courts' Salaries and Expenses, 
funds the bulk of Federal court operations nationwide, including the 
regional courts of appeals, district courts, bankruptcy courts, and 
probation and pretrial services offices. For this account, we are 
requesting a 3.9 percent increase in fiscal year 2016 to $5.0 billion 
in discretionary appropriations. I note that we are not requesting 
funding to increase the number of staff in clerks of court or probation 
and pretrial services offices, but those offices will have the ability 
to continue backfilling some vacancies in fiscal year 2016. The request 
includes $136.2 million for standard pay and non-pay inflationary 
adjustments for court staff. In addition, we are requesting an increase 
of $11.0 million for additional chambers staff associated with 
projected changes in filled judgeships. We also seek $8.9 million in 
net adjustments in our space program.
    The Defender Services program, which provides court-appointed 
criminal defense representation under the Criminal Justice Act to 
financially eligible defendants, requires a 4.0 percent increase to 
$1.06 billion in fiscal year 2016 to handle an estimated 200,000 
representations. The fiscal year 2016 request includes $39.3 million 
for inflationary pay and benefits adjustments for Federal defender 
organizations, changes in projected Federal defender and panel attorney 
caseload, and payments to panel attorneys, including a 1 percent cost-
of-living adjustment to panel attorney hourly rates.
    Our Court Security account funds protective guard services and 
security systems and equipment at Federal courthouses and requires a 
5.5 percent increase to $542.4 million for fiscal year 2016. 
Adjustments to base total $22.1 million and include $11.7 million for a 
required 3 percent wage rate increase for contract court security 
officers (CSOs), $4.9 million for additional security systems and 
equipment costs, $2.4 million in higher Federal Protective Service 
charges, and $3.1 million in other standard pay and non-pay 
adjustments.
    The Fees of Jurors and Commissioners account funds statutory fees 
and allowances for grand and petit jurors and land commissioners 
appointed by a court to determine just compensation in Federal eminent 
domain cases. This includes the daily compensation paid to jurors as 
well as related costs for meals and incidental expenses. This account 
requires $52.4 million in fiscal year 2016, a 0.4 percent increase 
above fiscal year 2015, a net increase of $220,000 comprised of 
downward adjustments to base totaling $3.8 million primarily due to 
lower petit juror projections, and a $4.0 million program enhancement 
to increase daily juror pay, which I discuss in the next section of my 
testimony.
          program enhancements to improve judiciary operations
Implementing Centralized IT Hosting Services for the Courts
    The judiciary's fiscal year 2016 request for the Salaries and 
Expenses account includes $19.0 million for the first year costs of a 
multi-year national IT hosting initiative. Over the past decade, the 
judiciary has pursued an incremental path toward consolidating both its 
national systems and court hosting environments. Previously, courts 
were responsible for locally hosting mission-essential systems and 
providing the necessary infrastructure for those systems. Most courts 
now access their national case management, jury management, email, 
telephone service, and other systems over the judiciary's data network 
from one of two national data centers, one on each coast.
    The remaining systems in the local courts' server rooms are 
primarily focused on managing courts' desktop computers and providing 
file servers for court staff. Yet even these systems are capable of 
being hosted centrally. There are four primary benefits to doing so: 
(1) economy-of-scale savings of as much as 40 percent in lower hardware 
and software costs as local courts would no longer have to maintain 
separate hosting infrastructure; (2) improved continuity of operations 
because a regional disaster or outage would not impact data/
applications that are centrally hosted (the national data centers on 
each coast provide failure backup to each other); (3) standardized 
security for court systems versus the various security models that 
exist today; and (4) reduced space needs as rooms previously dedicated 
to local computer servers could be given up or repurposed for other 
uses. As an example of the benefits of providing centralized IT 
services, several years ago the judiciary implemented a national phone 
system to replace individual court phone systems across the country. 
Since implementation of the new phone system we have seen lower 
aggregate telecommunications costs, reduced equipment costs, better 
security, and improved reliability.
    Currently, 17 court units participate in a pilot program for 
national hosting of their local IT systems. The pilot has confirmed 
that while the reasons an individual court might decide to adopt 
enterprise hosting and cloud computing services for its systems may 
vary, the basic benefits across the judiciary are the same: reduce the 
total cost-of-ownership for hosting systems; achieve true continuity-
of-operations; and improve IT security. The success of the pilot drove, 
in part, the judiciary's decision to seek funding in fiscal year 2016 
to make centralized hosting available to all courts nationwide. The 
initial implementation will employ a judiciary private ``cloud'' 
technology that will address our specific and unique security 
requirements. Funding requested in fiscal year 2016 would enable the 
judiciary to move beyond the pilot with implementation in a number of 
additional courts. Locally, courts will be able to accrue savings by 
not having to spend funds for hardware and related systems 
administration and will benefit from enhanced reliability, redundancy, 
and security. In addition, providing a national solution reduces the 
need for courts to maintain large computer rooms, thus reducing space 
and utilities requirements.
     replacing outdated and inefficient email and messaging system
    We request $7.0 million in the courts' Salaries and Expenses 
account to begin replacement of the judiciary's 14-year-old email and 
messaging system that is inadequate to meet the judiciary's current 
workload demands. While email and calendaring were the primary needs in 
2000, today's email platform includes advanced features and 
functionality, such as instant messaging, collaboration, document 
sharing, integration with mobile device platforms, and more. This 
initial investment will fund the development of a unified judiciary-
wide email and messaging system that incorporates advanced features and 
functionality required for mobile computing, document sharing, and 
improved security. The judiciary is examining several key issues, such 
as whether to migrate legacy email data and alternatives for doing so, 
that will determine the ultimate cost. It is anticipated such decisions 
will be made this summer so that the project can move forward, subject 
to available funding in fiscal year 2016.
                      reducing offender recidivism
    Our probation and pretrial services program strives to employ the 
most proven strategies for supervising offenders awaiting trial or 
released from prison and living in the community. Our fiscal year 2016 
request includes $15.0 million in the courts' Salaries and Expenses 
account to expand evidence-based offender supervision practices to 
further reduce recidivism rates.
    To begin, the Federal system's recidivism rate has been half that 
of many States. The 3-year felony re-arrest rate for persons under 
Federal supervision is 24 percent, and the revocation rate hovers at 30 
percent. In contrast, a Bureau of Justice Statistics study looking at 
15 State parole systems found a recidivism rate of 67.5 percent. 
Similarly, while supervision violators constituted 33 percent of all 
new prison admissions in the States in 2011, violators constituted only 
8 percent of the new admissions in Federal prisons during the same 
period.
    Past supervision approaches have focused on frequency of probation 
officer/offender contacts and compliance with conditions of supervision 
imposed by the judge. While compliance with conditions still remains a 
major component of supervision, working with the offender to change his 
behavior will provide the best long-term value to the offender and the 
community. ``Evidence-based practices'' (EBP) are the supervision 
practices proven to produce specific, intended results. EBP is an 
outcome-based approach that focuses on specific supervision and 
treatment strategies versus the more traditional contact-driven 
supervision approach. One of the judiciary's EBP programs, called Staff 
Training Aimed at Re-Arrest Reduction (STARR), involves exercises and 
instructions designed to alter the dysfunctional thinking patterns 
exhibited by many offenders and improves the quality and nature of the 
relationship between the offender and the officer. STARR builds on 
officers' existing communication skills, use of authority, and ability 
to impart cognitive restructuring strategies to offenders. Since STARR 
was implemented in 2012, 1,139 officers have been trained in 57 of the 
94 judicial districts nationwide. The $15 million requested for fiscal 
year 2016 will expand access to programs like STARR that target dynamic 
risks posed by offenders.
    We believe that the modest cost for the judiciary's evidence-based 
approach to offender reentry into society will reduce the high costs 
associated with recidivism. It costs the Bureau of Prisons about $80 
per day to incarcerate an offender in a Federal prison. It costs the 
judiciary on average less than $10 per day for a probation officer to 
supervise an offender in the community. If that offender succeeds, the 
costs of further incarceration are avoided and the offender can become 
a productive member of society--gain employment, pay taxes, make 
restitution, pay fines, etc. This may not be possible in every case, 
but we believe there are ways to improve the chances that many more 
offenders will remain law-abiding, and through our STARR program we are 
proactively seeking to identify and implement supervision practices 
that will assist offenders.
           adding magistrate judges to meet workload demands
    Our request also includes a program increase of $1.9 million in the 
courts' Salaries and Expenses account for three additional magistrate 
judges and associated staff to address workload demands in three 
judicial districts. The Judicial Conference authorizes new magistrate 
judge positions based upon a demonstration of need by a requesting 
court. The Judicial Conference has approved three new magistrate judge 
positions in the following locations: San Francisco or San Jose, 
California (California-Northern); Tacoma, Washington (Washington-
Western); and Tampa, Florida (Florida-Middle).
       providing adequate compensation to court-appointed counsel
    We request your support for a program enhancement in our budget 
that will ensure effective representation for criminal defendants who 
cannot afford to retain their own counsel. We are requesting $1.8 
million in the Defender Services program to increase the non-capital 
(non-death penalty) panel attorney rate by $6 per hour above the cost-
of-living adjustment (COLA) level, effective January 1, 2016. If the 
judiciary's budget request is fully funded, the new effective non-
capital hourly rate would be $134. The annualized cost of the $6 
increase is $14.4 million. A panel attorney is a private attorney who 
serves on a panel of attorneys maintained by the district or appellate 
court and is assigned by the court to represent financially-eligible 
defendants in Federal court in accordance with the Criminal Justice Act 
(CJA). There are more than 10,000 panel attorneys accepting CJA 
appointments in Federal court and most are solo or small law firm 
practitioners.
    Panel attorneys currently are paid $127 per hour for non-capital 
work and $181 per hour for capital (death penalty) work. The CJA 
authorized the Judicial Conference to implement annual cost-of-living 
adjustments (COLAs) to panel attorney rates, subject to congressional 
funding. The COLA requested in our fiscal year 2016 budget would 
increase the current rate by $1 to $128 per hour. If the statutory 
COLAs provided to Federal employees (the base employment cost index 
component only) had been provided to panel attorneys on a recurring, 
annual basis since 1986, the authorized non-capital hourly rate for 
fiscal year 2016 would be $144. As a result, we are also seeking a $6 
``catch up'' increase to $134 in fiscal year 2016 to close the gap 
between the current rate and the authorized hourly rate of $144.
    Panel attorneys are small business owners who pay their own salary, 
as well as rent, staff salaries, health insurance, and other overhead 
expenses from the CJA hourly rate. The rate is intended to cover both 
overhead and a fair hourly fee. According to a 2009 nationwide survey 
conducted by the judiciary, panel attorneys earned on average $246 per 
hour for their non-CJA cases and incurred overhead expenses of $70 per 
hour. The current CJA non-capital rate is not competitive with even 
these out-of-date figures. For comparison, the Department of Justice 
pays $200 per hour to retain private counsel to represent current or 
former Federal employees in civil, congressional, or criminal 
proceedings. The judiciary is in the process of completing another 
nationwide survey of panel attorneys and judges to assess the effect of 
the current hourly rate on CJA representations and will share that 
information with the subcommittee once the survey data has been 
compiled.
    Although the judiciary's goal is to eventually attain the full non-
capital rate authorized by statute, we are cognizant of pressures on 
the Federal budget and seek only a partial catch-up increase in fiscal 
year 2016. We must, however, remain mindful that ensuring the Sixth 
Amendment right to effective counsel depends on the quality and 
competence of these CJA panel attorneys, and a fair hourly rate is 
essential to meeting this constitutional mandate.
               improving security at federal courthouses
    The judiciary's fiscal year 2016 request for Court Security 
includes $4.6 million to improve security at Federal courthouses 
nationwide. One of the U.S. Marshals Service's (USMS) primary missions 
is to provide security for the Federal courts. Congress appropriates 
funding to the judiciary and we transfer about 85 percent of that 
funding to the USMS for it to manage the Judicial Facility Security 
Program, which includes contracting for 4,200 court security officer 
(CSO) positions to protect Federal courthouses, and procuring court 
security systems and equipment, such as magnetometers, to deploy at 
Federal court facilities.
    The USMS currently allocates CSOs to judicial districts based on a 
staffing formula that was developed in 1994. The USMS commissioned a 
review in September 2011 to assess CSO staffing levels to determine if 
they were sufficient to meet current security requirements. Based on 
the results of the review, the USMS recommends that 346 additional CSOs 
be posted at Federal courthouses during business hours. The updated 
standard strengthens security at court facilities by adding CSOs in 
security control rooms and at garage/loading docks at large court 
facilities. The updated standard also includes a crucial exterior 
``forward watch'' position outside courthouse entrances to identify and 
address threats earlier, before they gain entry to the courthouse.
    Hiring 346 additional CSOs in a single year would cost an estimated 
$33.8 million. Mindful of Federal budget constraints, the judiciary and 
the USMS propose phasing in the new staffing standard over 5 years, 
with 69 additional CSO positions being hired in fiscal year 2016 at a 
cost of $4.6 million, and a similar number each succeeding year, 
through full implementation in fiscal year 2020.
    Additional program enhancements for Court Security include $780,000 
to increase the class size for in-depth CSO training at the Federal Law 
Enforcement Training Center in Glynco, Georgia from 24 to 30 students, 
and extending the training from 3 to 5 days, and $1.0 million to 
reimburse the USMS for security-related IT support services it provides 
but has not previously charged to the judiciary.
           increasing the daily pay for federal jury service
    The judiciary's fiscal year 2016 request includes $4.0 million in 
the Fees of Jurors and Commissioners account to increase petit and 
grand juror daily attendance pay by $10, from $40 to $50. Although 
inflation and the cost-of-living have increased, juror pay has not 
changed since December 1990. If basic inflationary increases were 
applied each year since 1990, the current rate would be $72 per day. In 
order to compensate jurors more fairly for performing their civic duty, 
we are requesting a modest $10 increase to $50 per day. We would 
appreciate the subcommittee's support of this proposal.
                               conclusion
    Chairman Boozman and Senator Coons, I hope that my testimony today 
provides you with some insight into the fiscal year 2016 funding needs 
of the Federal courts, particularly the information technology and 
other program initiatives that I just described. Again, I thank the 
subcommittee for holding this hearing today and I look forward to 
working closely with you going forward. As you make decisions on fiscal 
year 2016 funding for the agencies under the subcommittee's 
jurisdiction, we ask that you take into account the judiciary's unique 
constitutional role in our system of government. In return, we commit 
to you that we will continue to be good fiscal stewards, cutting costs 
where possible, spending each dollar wisely, and making smart 
investments to achieve long-term savings.
    Thank you for your support of the Federal judiciary. I would be 
happy to answer any questions the subcommittee may have.

                               APPENDIX A

       Summary of the Judiciary's Fiscal Year 2016 Budget Request

    The judiciary's fiscal year 2016 budget request of $7.0 billion in 
discretionary appropriations reflects a 3.9 percent increase above 
fiscal year 2015 to support the constitutional and statutory mission of 
the Federal courts.
    The judiciary's fiscal year 2016 request will maintain current 
services across the judiciary, continue the recovery and restoration of 
activities that were disrupted because of sequestration, and enable 
investment in important new or upgraded program initiatives needed to 
support judicial operations.
    The judiciary's budget request does not include funding for 
additional staff in clerks of court or probation and pretrial services 
offices, but those offices will have the ability to continue 
backfilling some vacancies in fiscal year 2016. The request fully funds 
the judiciary's Defender Services Program which provides court-
appointed counsel to indigent defendants, and includes a $6 rate 
increase above inflation to the non-capital panel attorney hourly rate, 
from $128 to $134. The requested level also provides for a sufficient 
level of security at Federal court facilities nationwide. Lastly, the 
judiciary's request will ensure that funds are available for criminal 
and civil jury trials, and will allow for an increase in the daily 
juror attendance fee by $10, from $40 to $50, the first such increase 
since 1990.
             details of the fiscal year 2016 budget request
  --The judiciary's fiscal year 2016 appropriations request totals $7.5 
        billion. The request includes $7.0 billion in discretionary 
        appropriations, an increase of $264.5 million (3.9 percent) 
        over the fiscal year 2015 enacted level. The request also 
        includes $571.1 million in mandatory appropriations, an 
        increase of $20.7 million above fiscal year 2015.
Discretionary Appropriations
  --A total of $209.0 million (79 percent) of the $264.5 million 
        increase requested will provide for pay adjustments, inflation, 
        and other adjustments to base necessary to maintain current 
        services. Of this amount:
    --An increase of $132.0 million provides for inflationary pay and 
            benefit rate increases for magistrate and claims judges and 
            support personnel, including annualization of fiscal year 
            2015 pay adjustments, expected January 2016 pay adjustments 
            (e.g. 1.0 percent Employment Cost Index (ECI) adjustment 
            for Federal workers), changes in benefits costs, a cost-of-
            living adjustment for panel attorneys, and a wage rate 
            adjustment for court security officers.
    --An increase of $50.2 million is necessary to replace non-
            appropriated sources of funds used to support base 
            requirements in fiscal year 2015 with direct 
            appropriations, due to lower fee collections and 
            carryforward balances projected for fiscal year 2016 versus 
            fiscal year 2015.
    --An increase of $15.7 million provides for increases in contract 
            rates and other standard inflationary increases.
    --An increase of $13.8 million is necessary to maintain on-going 
            information technology requirements.
    --An increase of $11.0 million is associated with additional 
            chambers staff for newly confirmed judges and judges taking 
            senior status.
    --An increase of $9.7 million provides for space-related 
            adjustments.
    --An increase of $7.3 million funds security-related adjustments.
    --A net decrease of $30.7 million is associated with fiscal year 
            2015 non-recurring requirements, projected changes in 
            Defender Services caseload, and other minor adjustments.

  --A total of $55.5 million (21.0 percent) of the $264.5 million 
        increase requested will provide for program enhancements. Of 
        this amount,
    --An increase of $26.0 million provides initial funding for a 
            national enterprise hosting and cloud computing initiative 
            and to upgrade the judiciary's email and messaging system.
    --An increase of $15.0 million expands evidence-based supervision 
            practices in the probation and pretrial services program to 
            further reduce recidivism rates.
    --An increase of $6.3 million funds security-related enhancements, 
            including the initial implementation of a new court 
            security officer staffing standard recommended by the U.S. 
            Marshals Service.
    --An increase of $4.0 million raises the daily juror attendance fee 
            by $10--from $40 to $50--for grand and petit jurors, the 
            first such increase since 1990.
    --An increase of $1.9 million funds three additional magistrate 
            judges and staff.
    --An increase of $1.8 million provides for a $6 per hour panel 
            attorney rate increase above inflation, from $128 to $134, 
            for non-capital cases.
    --An increase of $0.5 million funds higher Supreme Court facility 
            maintenance costs.
Mandatory Appropriations
  --A $20.7 million increase is requested for judiciary mandatory 
        appropriations, as follows:
    --An increase of $4.1 million provides for pay adjustments for 
            Article III and bankruptcy judges' salaries, including 
            annualization of the fiscal year 2015 pay adjustment, the 
            proposed January 2016 pay adjustment (e.g. 1.0 percent ECI 
            adjustment for Federal workers), and changes in benefits 
            costs.
    --An increase of $4.8 million funds salary costs associated with 45 
            projected judge confirmations and 30 judges taking senior 
            status in fiscal year 2016, and changes in the number of 
            filled bankruptcy judgeships.
    --An increase of $11.8 million provides for the judiciary 
            retirement trust funds accounts based on requirements 
            calculated by an independent actuary.

                                            JUDICIARY APPROPRIATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                         $ Change      % Change
                                                             Fiscal Year  Fiscal Year   Fiscal Year  Fiscal Year
            Discretionary Appropriations Account                 2015         2016       2016 vs.      2016 vs.
                                                               Enacted      Request     Fiscal Year  Fiscal Year
                                                                                           2015          2015
----------------------------------------------------------------------------------------------------------------
U.S. Supreme Court
    Salaries & Expenses....................................      $74,967      $75,717         $750           1.0
    Care of Building and Grounds...........................       11,640        9,953       (1,687)        -14.5
                                                            ----------------------------------------------------
      Total................................................       86,607       85,670         (937)         -1.1
 
U.S. Court of Appeals for the Federal Circuit..............       30,212       30,841          629           2.1
U.S. Court of International Trade..........................       17,807       18,145          338           1.9
Courts of Appeals, District Courts, and Other Judicial
 Services
    Salaries & Expenses--Direct............................    4,846,818    5,036,338      189,520
    Vaccine Injury Trust Fund..............................        5,423        6,045          622
                                                            ----------------------------------------------------
      Total................................................    4,852,241    5,042,383      190,142           3.9
 
    Defender Services......................................    1,016,499    1,057,616       41,117           4.0
    Fees of Jurors & Commissioners.........................       52,191       52,411          220           0.4
    Court Security.........................................      513,975      542,390       28,415           5.5
                                                            ----------------------------------------------------
      Subtotal.............................................    6,434,906    6,694,800      259,894           4.0
 
Administrative Office of the U.S. Courts...................       84,399       87,590        3,191           3.8
Federal Judicial Center....................................       26,959       27,679          720           2.7
U.S. Sentencing Commission.................................       16,894       17,540          646           3.8
    Direct.................................................    6,692,361    6,956,220      263,859
    Vaccine Injury Trust Fund..............................        5,423        6,045          622
                                                            ----------------------------------------------------
      Total Discretionary Appropriations...................    6,697,784    6,962,265      264,481           3.9
 
Mandatory Appropriations:
    Salaries of Judges \1\.................................      406,762      415,699        8,937
    Judiciary Retirement Trust Funds.......................      143,600      155,400       11,800
                                                            ----------------------------------------------------
      Total Mandatory Appropriations.......................      550,362      571,099       20,737
                                                            ----------------------------------------------------
          Total Judiciary Appropriations...................    7,248,146    7,533,364      285,218
----------------------------------------------------------------------------------------------------------------
\1\ Mandatory salaries include the salaries of justices of the Supreme Court, judges of the Court of Appeals for
  the Federal Circuit and Court of International Trade, and Article III and bankruptcy judges funded in the
  Courts' Salaries and Expenses account. (Magistrate judges and Court of Federal Claims judges are funded by
  discretionary appropriations.)

                                 ______
                                 
Prepared Statement of Hon. Jeremy D. Fogel, Director, Federal Judicial 
                                 Center
    Chairman Boozman, Senator Coons, and members of the subcommittee:
    My name is Jeremy Fogel. I have been a United States District Judge 
in the Northern District of California since 1998 and the Director of 
the Federal Judicial Center since October 2011. I appreciate the 
opportunity to provide you with this statement in support of our 2016 
appropriations request. Because our request is modest, this statement 
is brief. The Center's Board, which the Chief Justice chairs and on 
which the Director of the Administrative Office of the U. S. Courts 
serves, approved this request in October 2014.
    Our request for 2016 is $27,679,000--an increase of $720,000 (or 
2.7 percent) above our fiscal year 2015 appropriations level 
($26,959,000). The $720,000 increase is entirely for standard 
adjustments to our 2015 base. We are not requesting any funds for 
program growth or enhancements.
    I would like to provide you with a brief description of the Center 
and its activities. I hope to convey to you the important contribution 
that the Center makes to the effective and efficient functioning of the 
Federal courts.
                the center's contribution to the courts
    Speaking not only as the Center's director but also as a judge, I 
can attest to the importance of the Center to the courts and the people 
who work in them. The Center's statutory mission is to further the 
development and adoption of improved judicial administration in the 
Federal courts. We carry out our mission through educational programs 
for judges to help them dispose of complex litigation effectively and 
fairly, and for court managers and staff to help them operate 
efficiently and to maintain services to the public, including 
supervision of Federal criminal defendants and offenders. Our 
independent, impartial, empirical research on Federal litigation and 
judicial administration contributes directly to changes in procedures 
and policies that make litigation and court operations more user-
friendly and efficient.
                         education and training
    Center education programs are vital to judges and court staff. 
Orientation programs enable new judges to assume their responsibilities 
quickly. Continuing education programs educate judges on topics ranging 
from case-management techniques to new statutes and case law and 
emerging trends and practices.
    Court staff, who play a critical role in supporting judges and 
ensuring the efficient operation of the courts, rely on the Center for 
educational programs and materials that help them do their jobs well. 
Our multi-year leadership programs help court employees do their 
current jobs even better and prepare them for positions of greater 
responsibility.
    The need for education and training remains great. Educating judges 
about new legal developments, ethical requirements and effective case 
management practices always has been and will continue to be necessary. 
Judges and court managers also seek additional education in effective 
court management to help address the challenging fiscal climate, use 
technology effectively and maintain a productive workforce.
    The Center delivers education through in-person programs and a 
variety of media to provide education and information to judges and 
staff efficiently. The delivery tools we use include hard-copy 
publications, and an array of technologies, including our internal and 
external Web sites, Web applications, teleconferencing, Web-
conferencing, and streaming video. All these delivery means help us 
meet the diverse needs of a diverse population of judges, managers, and 
staff in a cost-effective way.
                            center research
    The courts, and particularly the Judicial Conference of the United 
States, as well as Congress and the public, are regular consumers of 
the Center's research projects. They rely on the Center for thorough, 
unbiased, well-documented research. Most of the approximately 50 major 
research projects under way in 2015 were requested by the Judicial 
Conference and its committees. The Center's research not only helps 
judges decide cases efficiently and fairly but also helps the judiciary 
and Congress make better-informed decisions about policies and 
procedures affecting the courts.
    Thank you for your careful consideration of our request. I hope 
that the brevity of this statement does not minimize in any way the 
vital contribution the Center makes to support the work of the Federal 
courts. I respectfully urge you to provide the Center with the modest 
2.7 percent increase--simply a current services funding level--it needs 
in 2016. I would be pleased to respond to any questions you may have.
                                 ______
                                 
    Prepared Statement of Hon. Patti B. Saris, Chair, United States 
                         Sentencing Commission
    Chairman Boozman, Senator Coons, and members of the subcommittee, 
the United States Sentencing Commission (Commission) thanks you for the 
opportunity to submit this statement in support of its appropriations 
request for fiscal year 2016. The Commission's statutory mission to 
ensure sound and just Federal sentencing policy while prioritizing 
limited resources to best ensure public safety, as set forth in the 
Sentencing Reform Act of 1984, continues to be of tremendous 
importance.
                          resources requested
    The Commission is requesting $17,540,000 for fiscal year 2016, 
representing a 3.8 percent increase over the fiscal year 2015 
appropriation of $16,894,000. The Commission fully appreciates the 
serious budget constraints facing the Nation and the need for 
Government agencies to allocate their resources responsibly and has 
limited its requests accordingly.
         justification for commission's appropriations request
    The statutory duties of the United States Sentencing Commission 
include: (1) promulgating sentencing guidelines to be determined, 
calculated, and considered in all Federal criminal cases; (2) 
collecting sentencing data systematically to detect new criminal 
trends, to determine if Federal crime policies are achieving their 
goals, and to serve as a clearinghouse for Federal sentencing 
statistics; (3) conducting research on sentencing issues and serving as 
an information center for the collection, preparation, and 
dissemination of information on Federal sentencing practices; and (4) 
providing specialized training to judges, probation officers, staff 
attorneys, law clerks, prosecutors, defense attorneys, and other 
members of the Federal criminal justice community on Federal sentencing 
issues, including application of the guidelines.
    The Commission sits at the intersection of all three branches of 
Government and synthesizes the interests of the three branches to 
effectuate sound Federal sentencing policy. Consistent with statutory 
guidance and Supreme Court case law, the Commission continues its core 
mission to promulgate new guidelines and guideline amendments in 
response to legislation, sentencing data, and information and feedback 
from sentencing courts, Congress, the executive branch, Federal public 
defenders, and others in the Federal criminal justice system. The 
Commission continues to expand its specialized training on Federal 
sentencing issues, including application of the guidelines to Federal 
judges, probation officers, staff attorneys, law clerks, prosecutors, 
defense attorneys, and others.
    In fiscal year 2014, the Commission has taken a leading role in 
reducing costs associated with rising prison populations, increasing 
the fairness and efficiency of sentencing, and improving recidivism 
outcomes, thereby saving additional funds. The Commission's efforts are 
calibrated to ensure public safety and provide that the statutory 
purposes of sentencing are achieved. The Commission will continue these 
efforts in fiscal years 2015 and 2016 and is also prioritizing finding 
ways to make the guidelines work better, promoting efficiency and 
effectiveness and reducing unnecessary litigation.
    Furthermore, the Commission continues to refine its data 
collection, analysis, and reporting efforts to provide up-to-date data 
about Federal sentencing practices and trends. The Commission continues 
to disseminate sentencing information in real time and in new ways to 
fulfill its statutory duties to monitor the operation of the guidelines 
and to advise Congress on Federal sentencing policy. The Commission 
also continues to analyze major sentencing issues and report its 
findings and recommendations to Congress, as well as to respond to 
requests from Congress for data and analysis.
    Even as the demand for Commission work-product, information, and 
services is increasing, the Commission is not requesting program 
increases for fiscal year 2016 because it continues to maximize 
existing resources. The Commission appreciates the funding Congress has 
provided for the Commission's fulfillment of its statutory duties.
                     sentencing policy development
    In light of the increasing costs of incarceration and the ongoing 
overcapacity of the Federal prison system, since fiscal year 2014 the 
Commission has made implementing its mandate at section 994(g) of the 
Sentencing Reform Act, which requires that the guidelines ``minimize 
the likelihood that the Federal prison population will exceed the 
capacity of the Federal prisons,'' an overarching policy priority. 
Consistent with that goal, in fiscal year 2014 the Commission 
reexamined the guideline covering Federal drug trafficking offenses 
since Federal drug offenders account for more than half of the Federal 
prison population.
    The Commission conducted hearings on how the guidelines account for 
the quantity of drugs involved in Federal drug trafficking offenses, 
analyzed sentencing and recidivism data, considered legislative and 
guideline developments, reviewed tens of thousands of letters from the 
public, and carefully considered input from Members of Congress and 
other key stakeholders, and other relevant information. The 
Commission's exhaustive re-examination resulted in the promulgation of 
an amendment that somewhat reduces the guideline penalties based on the 
quantity of drugs involved in an offense. The amendment is anticipated 
to affect approximately 70 percent of Federal drug trafficking 
defendants, with their sentences decreasing an average of 11 months, or 
17 percent, from 62 to 51 months. In addition to addressing prison 
populations and costs, these changes to the drug guidelines respond 
appropriately to statutory changes Congress has made and developments 
in the guidelines in the years since the drug guideline levels were 
originally set.
    The Commission carefully weighed public safety concerns and, based 
on past experience, existing statutory and guideline enhancements, and 
expert testimony, concluded that the amendment should not jeopardize 
public safety. To the contrary, the Commission received testimony from 
the Department of Justice and other stakeholders that the amendment 
would promote public safety by permitting resources otherwise dedicated 
to housing prisoners to be used to reduce overcrowding, enhance 
programming designed to reduce the risk of recidivism, and increase law 
enforcement and crime prevention efforts.
    Section 994(u) of the Sentencing Reform Act also required that the 
Commission consider whether to make the drug amendment retroactive, and 
after extensive consideration, the Commission decided to make the 
amendment retroactive with a 1 year delay in implementation. In 
reaching its decision, the Commission was informed by its study of 
recidivism following retroactive application of the 2007 crack cocaine 
amendment which suggests that modest reductions in drug penalties can 
be accomplished without an increase in recidivism. The 1 year delay in 
implementation will also help to ensure public safety by allowing 
judges time to carefully consider each case, providing time for the 
Probation and Pretrial Services Office to prepare to supervise more 
offenders, and ensuring that the Bureau of Prisons can provide 
offenders with transitional services before they are released.
    Retroactive application of the amendment is anticipated to have a 
significant impact on reducing prison costs and overcapacity, and the 
impact will come much more quickly than from a prospective change 
alone. More than 40,000 offenders may be eligible for reduced 
sentences, and these offenders are eligible to have their sentences 
reduced by an average of 25 months or 18.8 percent. This reduction is 
estimated to result over time in a savings of more than 70,000 prison 
bed years.
    The Commission believes that the 2014 drug amendment and its 
retroactive application are important first steps toward addressing 
prison costs and populations with proportionate guidelines, without 
negatively impacting public safety. The Commission hopes the amendment 
will lay the groundwork for more comprehensive action by Congress in 
the future, and the Commission's Chair testified to that effect before 
the House Judiciary Committee's Over-Criminalization Task Force in June 
2014.
    In fiscal year 2014, the Commission also implemented the Violence 
Against Women Reauthorization Act of 2013, Public Law No. 113-4, a 
major piece of legislation impacting a variety of offenses in Indian 
Country and beyond. It also resolved circuit conflicts in Courts of 
Appeals relating to the guidelines, including differences in 
calculating tax loss under the guidelines and the circumstances under 
which a defendant receives full credit for acceptance of 
responsibility.
    In fiscal year 2015 and looking forward to fiscal year 2016, the 
Commission has prioritized examining ways the guidelines can be made 
fairer, more efficient, and more effective. In furtherance of this 
goal, the Commission expects to promulgate guideline amendments 
resulting from its multi-year review of economic crimes that target 
specific areas of ongoing concern, such as cases involving particularly 
high loss amounts and fraud on the market offenses. In addition, the 
Commission is prepared to respond to recent rescheduling by the Drug 
Enforcement Administration for the drug hydrocodone.
    Furthermore, the Commission convened an expert roundtable 
discussion on application issues caused by differing statutory, 
guideline, and case law definitions of crimes of violence. Differing 
and complex statutory and guideline definitions have caused significant 
litigation in Federal sentencing, draining judicial resources and 
causing increased uncertainty and lack of uniformity in sentencing.
    The Commission also continued work on a multi-year study on 
recidivism of Federal offenders. In fiscal year 2013, the Commission 
held a recidivism roundtable where it heard from a variety of experts 
on methodology, quantitative statistical analysis, and program 
evaluation. The recidivism study will draw on partnerships across the 
Federal criminal justice system and will combine data from the 
Commission, the Department of Justice, and the Administrative Office of 
the U.S. Courts to develop a comprehensive trajectory of offenders 
prior to incarceration, during incarceration, and following reentry 
into the community. The Commission believes this research will 
contribute significantly to the consideration of Federal sentencing 
policy by Congress and others in fiscal year 2015 and beyond.
    In addition, in fiscal year 2014, the Commission undertook a study 
of Federal sentencing practices pertaining to imposition and violations 
of conditions of probation and supervised release, including possible 
consideration of amending the relevant provisions in the Guidelines 
Manual. The Commission believes this research may inform congressional 
consideration of issues including identification of conditions of 
supervised release that are correlated with lower recidivism.
    Also in fiscal year 2014, the Commission began work on a review of 
the use of risk-assessment instruments in the Federal criminal justice 
system in order to be able to provide the Commission's data and 
expertise to Congress, the Probation and Pretrial Services Office of 
the Administrative Office of the U.S. Courts, and researchers at the 
Federal Judicial Center. The Commission's study is aimed at considering 
these tools in the context of the goals and requirements of the 
Sentencing Reform Act of 1984 that sentences remain neutral with 
respect to race, gender, and socioeconomic status, among other 
consideration.
    In fiscal year 2014, the Commission focused on making its data and 
research more readily accessible in more easily understood ways to 
Congress, the courts, the public, and the press. To this end, the 
Commission expanded its Quick Facts series first introduced in fiscal 
year 2013. The Quick Facts series is designed to provide concise facts 
about a single area of Federal crime in an easy-to-read, two-page 
format. The Commission released 14 publications in the Quick Facts 
series in fiscal year 2014 covering topics including illicit drugs, 
Native American offenders, female offenders, alien smuggling, and 
national defense offenses. The Commission will release new publications 
in fiscal year 2015 and update them regularly.
    In fiscal year 2014, the Commission also introduced a series of 
relatively short reports on various topics of interest. For example, 
the Commission released a brief publication about recidivism in 
connection with 2007 amendments that reduced sentences for crack 
offenders. The Commission will continue this short publication series 
in fiscal year 2015 and beyond.
    The Commission has also continued to work with Congress on its 
reports from fiscal years 2011 and 2012 on mandatory minimum penalties, 
child pornography offenses, and disparity in sentencing. These 
comprehensive reports provide policy-makers with relevant and important 
sentencing information and data, as well as the most relevant social 
science research and case law.
    The information and data contained in these reports has contributed 
to the consideration of Federal sentencing policy by Congress and 
others in fiscal years 2013 and 2014 and will likely continue to do so. 
In particular, during the 113th Congress the Commission worked to 
implement recommendations from its report on statutory mandatory 
minimum penalties and updated its recommendations on mandatory minimum 
penalties to address legislation before both the House and Senate. The 
Commission stands ready to work with the 114th Congress and others on 
steps that can be taken regarding the findings and recommendations in 
those reports.
                collecting and reporting sentencing data
    Each year the Commission collects data regarding every felony and 
class A misdemeanor offense sentenced during that year. Sentencing 
courts are statutorily required to submit five sentencing documents to 
the Commission within 30 days of entry of judgment in a criminal case: 
the charging document, the plea agreement, the presentence 
investigation report, the judgment and commitment order, and the 
statement of reasons form. The Commission analyzes these documents and 
collects information of interest and importance to policy-makers and 
the Federal criminal justice community.
    The Commission's data collection, analysis, and reporting 
requirements are impacted by the high volume of cases sentenced in the 
Federal system annually. The Commission will receive documentation on 
more than 350,000 documents for more than 76,000 original sentencings 
for fiscal year 2014. To put this caseload in perspective, in fiscal 
year 1995, the Commission received documentation for 38,500 cases 
sentenced under the guidelines.
    The Commission also collects real-time data from the courts on 
retroactive application of its permanent amendment implementing the 
Fair Sentencing Act of 2010, Public Law No. 110-220. The guideline 
amendment took effect on November 1, 2011.
    As of December 2014, the Commission has collected data on 
approximately 14,000 cases in which a modification of the sentence 
imposed was sought under the 2011 amendment to the sentencing 
guidelines that implemented the provisions of the Fair Sentencing Act 
and which the Commission voted to retroactively apply to persons 
sentenced before the date of that amendment. The Commission anticipates 
eventually receiving documentation on more than 15,000 motions for 
retroactive application of the 2011 crack cocaine amendment. These 
documents and original research will form the basis for a study on 
implementation of the Fair Sentencing Act in fiscal year 2015 as 
contemplated by the Act, which requires the Commission to submit a 
report to Congress 5 years after its enactment (August 3, 2010).
    The Commission has also begun collecting data on retroactive 
application of the 2014 drug amendment. Beginning November 1, 2014, 
judges were able to review sentences imposed prior to that date to 
determine if offenders' sentences should be reduced consistent with the 
2014 drug amendment. Offenders will not be eligible for release from 
Bureau of Prisons custody until November 1, 2015. The Commission 
anticipates receiving documentation on more than 40,000 motions for 
retroactive application of the 2014 drug amendment.
    The Commission's sustained investment in modernization and 
refinement of data collection and analysis have kept pace with demands 
placed on it, but full funding of the Commission's fiscal year 2016 
budget request is necessary to ensure efficient and effective 
performance of its data responsibilities given the number of Federal 
cases.
    The Commission continually updates and modernizes the system that 
enables sentencing courts to submit documentation directly to the 
Commission electronically. In recent years, the Commission advanced 
from an internal electronic data transmission submission system to a 
Web-based system and improved its processes related to the receipt and 
analysis of sentencing data. By the end of fiscal year 2014, 79 
districts were using the Web-based system.
    The Commission continues to work to develop means to automatically 
extract some data fields from the court documents to improve the 
efficiency of its data collection and to expand the type of information 
the Commission can collect and analyze on a routine basis. The 
Commission began to collect some data through this automated means in 
fiscal year 2014, and will continue to do so in fiscal year 2015 and 
beyond.
    The Commission makes its sentencing data available to the public in 
several ways. Analyses of the data extracted from the sentencing 
documents it receives are reported in the Commission's Annual Report 
and Sourcebook of Federal Sentencing Statistics, which is available in 
print and on its Web site. In order to provide the most timely 
information on national sentencing trends and practices, the Commission 
also disseminates on its Web site key aspects of this data on a 
quarterly basis and provides trend analyses of the changes in Federal 
sentencing practices over time.
    The Commission continued to improve and expand use of its 
Interactive Sourcebook. The Interactive Sourcebook allows users to re-
create and customize tables and figures, for example by circuit, 
district, or State and has improved the transparency and accessibility 
of its sentencing data to the public. Additionally, the Interactive 
Sourcebook provides analyses not found elsewhere, including analyses of 
sentence length by the primary guideline the court used at sentencing, 
amount of loss in fraud cases, and age of offenders in drug cases for 
each major drug type. In fiscal year 2014, additional analyses were 
added to this resource, including several new figures that examine 
trends in sentencing data over time.
    As required by 28 U.S.C. Sec. 994(g) and 18 U.S.C. Sec. 4047, when 
the Commission considers amendments to the guidelines, it considers the 
impact of these amendments on the Federal prison population. In 
addition, the Commission is asked often by Congress to complete prison 
and sentencing impact assessments for proposed legislation. Since 
fiscal year 2012, the Commission makes its prison and sentencing impact 
analyses available to the public on its Web site.
    The Commission often is asked by Congress to complete prison and 
sentencing impact assessments using real-time data of sentencing trends 
related to proposed and pending legislation. These assessments are 
often complex and time-sensitive and require highly-specialized 
Commission resources. In addition, the Commission responds to more 
general data requests from Congress on issues such as drugs, 
immigration, fraud, and sex offenses and provides district, state-wide, 
and circuit data analyses to House and Senate Judiciary Committee 
members and, on an as-requested basis, to other Members of Congress.
    The Commission also responds to requests for data analyses from 
Federal judges, including specific data requests relating to pending 
cases. In fiscal year 2014, the Commission responded to 77 such 
requests from the courts. The Commission's ability to provide these 
analyses on demand and with real-time data provides a unique and 
helpful resource to judges.
                          conducting research
    Research is a critical part of the Commission's overall mission. 
The Commission's research staff regularly analyzes the current and 
prior fiscal years' data to identify the manner in which the courts are 
sentencing offenders and using the guidelines. The Commission routinely 
uses these analyses when considering proposed changes to the 
guidelines. Similarly, some analyses are published by the Commission as 
a resource for policy-makers and the criminal justice community.
    In May 2014, the Commission published an updated study on the 
recidivism of offenders whose sentences were reduced as a result of 
changes to the 2007 crack cocaine sentencing guidelines. The study 
compared the recidivism rates for offenders who were released early as 
a result of retroactive application of the 2007 crack cocaine amendment 
with a control group of offenders who served their full terms of 
imprisonment. The Commission detected no statistically significant 
difference in the rates of recidivism for the two groups of offenders 
over 5 years. This information represents some of the first high-
quality, quasi-experimental, Federal recidivism data that uses sentence 
length as a dependent variable. This data was crucial to the Commission 
in making its fiscal year 2014 changes to the drug quantity table. It 
has also been used by Members of Congress in their own evaluations of 
proposed sentencing legislation.
    Since fiscal year 2013, the Commission makes individual offender 
datafiles available on its Web site. Datafiles from fiscal years 2002 
through 2013 are now available.
                         training and outreach
    The Commission continues to fulfill its statutory duty to provide 
training and specialized technical assistance on Federal sentencing 
issues, including application of the guidelines, to Federal judges, 
probation officers, staff attorneys, law clerks, prosecutors, and 
defense attorneys by providing educational programs around the country 
throughout the year. In fiscal year 2014, Commissioners and Commission 
staff conducted training programs in all 12 circuits and approximately 
half of the 94 judicial districts providing instruction and guidance to 
more than 6000 judges, probation officers, prosecutors, defense 
attorneys and others throughout the year.
    In September 2014, the Commission held its annual national training 
program in Philadelphia, Pennsylvania with more than 900 attendees, 
including many Federal district court judges. The Commission also 
participated in training an unusually large number of new Federal 
district judges, many of whom were unfamiliar with the Federal 
sentencing system prior to their appointments.
    Commissioners and Commission staff also participated in numerous 
academic programs, symposia, and circuit conferences as part of the 
ongoing discussion of Federal sentencing issues. The Commission 
anticipates that these expanded efforts and requests for training will 
continue throughout fiscal years 2015 and 2016.
    The Commission also is relying on a more robust program of distance 
and online learning as part of cost containment efforts. The Commission 
has increased the number of sentencing-related Webinars and training 
videos on its Web site throughout fiscal year 2014 and will continue to 
do so in 2015 and 2016. In October 2014, the Commission released its 
first training video focused at addressing the needs of Federal crime 
victims. The video informs victims of the Federal sentencing process 
and prepares them to participate more fully in the process.
                                summary
    The Commission remains uniquely positioned to assist the Federal 
criminal justice community, including Congress, in ensuring sound and 
just Federal sentencing policy and prioritizing limited resources to 
best protect the public safety. Located in the judicial branch and 
composed of Federal judges, individuals with diverse experience in the 
Federal criminal justice community, and ex officio representatives of 
the executive branch, the Commission is an expert, bipartisan body that 
works collaboratively with all three branches of Government on matters 
of Federal sentencing policy.
    As evidenced from the discussion above, demand for the Commission's 
various work products continues to increase. The Commission has 
responded in recent years by placing a high priority on increasing 
public access to its sentencing data, information, analyses, and 
training. The Commission has achieved this increased public access in 
great part by expanding the availability of resources on its Web site, 
and the Commission plans to continue this trend in fiscal year 2016 and 
beyond.
    The Commission appreciates the funding it has received from 
Congress and respectfully submits that full funding of its fiscal year 
2016 appropriations request of $17,540,000 will ensure that the 
Commission can continue to fulfill its various statutory missions 
efficiently and effectively.
                                 ______
                                 
Prepared Statement of Sharon Prost, Chief Judge, United States Court of 
                    Appeals for the Federal Circuit
    Chairman Boozman, Senator Coons, and members of the subcommittee, 
thank you for affording me the opportunity to submit this statement in 
support of the United States Court of Appeals for the Federal Circuit's 
fiscal year 2016 budget request. I am Sharon Prost, and my tenure as 
Chief Judge began on May 31, 2014. This is my first budget statement to 
you on behalf of the court.
    As you know, the United States Court of Appeals for the Federal 
Circuit is located in Washington, DC, and the court has exclusive 
nationwide jurisdiction over a large and diverse subject area. The 
Federal Circuit's jurisdiction includes appeals in all patent cases 
nationwide, all Government contract cases, all international trade 
cases, all Government personnel cases, all cases involving monetary 
claims against the United States under the Tucker Act, veterans' cases, 
and many others.
    Appeals to the Federal Circuit come from all of the 94 United 
States District Courts, the United States Court of Federal Claims, the 
United States Court of International Trade, and the United States Court 
of Appeals for Veterans Claims. The court also hears appeals from 
certain administrative agency decisions, including the United States 
Merit Systems Protection Board, the Board of Contract Appeals, the 
Patent Trial and Appeal Board, and the Trademark Trial and Appeals 
Board. In addition, the court reviews decisions of the United States 
International Trade Commission, the Office of Compliance, and the 
Government Accountability Office Personnel Appeals Board.
    At the outset, let me say that our court fully appreciates and 
embraces the need to reduce the Federal deficit and contain Federal 
spending. The Federal Circuit has worked diligently to do its part by 
finding cost-effective ways to meet its national mission. During my 
tenure as Chief Judge of the Federal Circuit, I pledge to continue to 
find new ways to control the court's operating expenses. Under my 
leadership, the Federal Circuit will be a vigilant steward of its 
appropriation, applying not only sound fiscal, procurement and 
personnel practices, but innovative ones as well. Indeed, these 
principals have consistently guided the court.
    In fiscal year 2013, the court managed through the sequestration 
and rescission of funds without resorting to the staff furloughs that 
many other courts imposed. This was accomplished by a hiring freeze and 
the leveraging of funding from staff and chambers vacancies. 
Understanding that this was only a short-term strategy, the court 
prepared to meet the need for continuing fiscal austerity by 
reconstructing our Mediation Services by increasing our reliance on 
expert volunteer mediators. We were then able to close our mediation 
satellite office in the Kluczynski Federal Building in Chicago and 
permanently release three full-time employees. Last fiscal year, the 
court began a reorganization to address further staff attrition caused 
by the retirement of a number of our retirement-eligible staff, trying 
like many courts and other organizations to do more work with fewer 
people. In the course of this reorganization, we determined that the 
level of staff reduction we experienced over the past 2 years is not 
permanently sustainable. We need to fill our remaining vacancies by the 
end of fiscal year 2015. In doing so, however, we will remain below our 
historic staffing level. This occurs at a time when our case load is 
demonstrably rising due to structural changes in the court's caseload, 
principally because of recent amendments in the law relating to patent 
litigation.
    Before I continue with my fiscal year 2016 statement, let me extend 
my sincere appreciation to the Committee for recognizing the Federal 
Circuit's needs in the enacted appropriation for the court in fiscal 
year 2015. The court will be able to fulfill its mission of timely 
adjudication of cases during this fiscal year because the funds you 
appropriated will allow us to proceed with recovering from the 
sequestration's impact.
    For fiscal year 2016, I respectfully ask that Congress provide the 
funds I have identified as necessary for the court to sustain current 
services and to continue to operate in an efficient and effective 
manner. With this goal in mind, the Federal Circuit's 2016 budget 
request totals $33,763,000, which includes $2,922,000 for mandatory 
expenses and $30,841,000 for discretionary expenses. The discretionary 
request of $30,841,000 is slightly less than a 2.1 percent increase 
over the fiscal year 2015 enacted appropriation for discretionary 
expenses of $30,212,000.
    For the fifth fiscal year in a row, the Federal Circuit's budget 
request includes no request for programmatic or staff increases. I am 
requesting only sufficient funds to provide for the essential, ongoing 
operations of the court. One hundred percent of the 2.1 percent budget 
increase requested for 2016 is to pay for adjustments to the base 
budget needed to maintain current services. These adjustments include 
projected salaries and benefits increases for staff, staff promotions 
and within-grade increases, general inflationary adjustments, and the 
increasing cost of library services and computer-assisted legal 
research.
    I recognize and fully appreciate the relentless pressure on 
Congress to contain and reduce Government spending. At the same time, 
the court also recognizes that the administration of justice and this 
court's unique impact on the economy and on those veterans and Federal 
employees who seek relief from this court, would suffer if funds are 
insufficient to keep the court properly staffed and fully functional. 
In this regard, I note further that our judges are aging and three are 
now eligible to elect senior status. As you know, when a judge opts for 
senior status, this court must provide two staff positions to support 
the judge's continuing work. In recent years, we have used vacant 
positions within the court's staff to fill senior judge needs. Having 
already absorbed a permanent staff reduction, we will no longer have 
this flexibility when all of our current vacancies are filled later 
this year. If one or more judges elect senior status, I may need to 
request funding sufficient to fill existing, but currently vacant, 
full-time equivalent (FTE) positions, or be forced to release two 
permanent employees in order to hire staff for any new senior judge. I 
will closely monitor this situation, and will notify you of any 
emergent need as soon as I am able.
    For fiscal year 2015, the Federal Circuit currently has sufficient 
resources to address the caseload. As I noted previously, however, 
structural changes have occurred in litigation within the jurisdiction 
of the court that have begun to increase the Federal Circuit's 
caseload. Last year, the court experienced its highest caseload in 5 
years. Early indications are that this year will equal or surpass last 
year. Moreover, the predominant increase is in complex patent cases, so 
the impact is larger than any raw numeric increase might support.
    The context of what appears to be a permanent, structural increase 
in our caseload begins with the Leahy-Smith America Invents Act, Public 
Law No. 112-29 (the AIA) enacted on September 16, 2011. As a result of 
changes to patent practice in the AIA, the Federal Circuit has begun to 
see what we expect to be a significant and long-term increase in the 
patent appellate caseload. The U.S. Patent and Trademark Office (USPTO) 
is implementing the America Invents Act (AIA) in a manner that makes it 
easier for American entrepreneurs and businesses to bring their 
inventions to the marketplace sooner, converting their ideas into new 
products and new jobs. As you know, the intent of the AIA is to help 
companies and inventors avoid costly delays and unnecessary litigation, 
and allow them focus instead on innovation and job creation. A number 
of important provisions of the law went into effect in September, 2012, 
12 months after the law was enacted.
    The success of the AIA depends on the Federal Circuit, which will 
have to resolve each of the many statutory interpretation questions 
posed by the new law. The AIA provides for patentability trials before 
the USPTO at the newly created Patent Trial and Appeal Board (PTAB), 
which is also tasked with working through a substantial backlog of 
appeals from conventional patent examination decisions. The statute 
provides that all of the appealed cases of the new PTAB come to the 
Federal Circuit for review. Only one AIA trial decision was rendered by 
the PTAB in 2013. In comparison, however, by early February of 2015, 
the PTAB had generated 254 final written decisions from the more than 
800 pending trials. The AIA trial work of the PTAB is expected to 
combine with other USPTO appeals to produce a very significant increase 
in cases in fiscal year 2016 for review by the Federal Circuit. We have 
already begun to see the impact. This past year USPTO patent appeals 
nearly doubled over the preceding year, from 110 to 212. This was 
accompanied by an increase in patent appeals from the United States 
District Courts, for a total increase of about 176 patent cases. While 
the numeric rise in cases does not yet appear unmanageable, the 
district court and PTAB patent cases are typically the most complicated 
and time consuming cases on the court's docket because the patents at 
issue are technically complex. Thus, the actual increase in appellate 
work is under-represented by last year's statistical increase of cases 
viewed in isolation.
    Based on the complexity of patent practice under the AIA, and the 
case load evidence to date, it is clear that there will be a sustained 
and progressive increase in our patent caseload. This is further 
confirmed by the fact that the USPTO has increased the number of 
administrative judges threefold, as well as attorneys in its 
solicitor's office. While facing the potential for a permanent increase 
in our caseload will be a challenge, it would be premature to request 
additional resources at this time. As a result, in our fiscal year 2016 
budget, I have not requested any additional funding to address the 
already increasing patent case load.
    At the same time, however, I am keenly aware that the Federal 
Circuit would be defeating the purpose of the AIA if delays occur in 
the appeal process that impede American inventors and businesses from 
bringing their products to market and resolving their disputes as 
swiftly as possible. It would indeed be unfortunate if the Federal 
Circuit is unable to process appeals from the PTAB expeditiously due to 
a lack of well-qualified staff resulting from insufficient funds. I 
will monitor the Federal Circuit's patent caseload carefully and I will 
not hesitate to notify you of any need for additional resources.
    Just as the AIA has apparently resulted in a structural increase in 
the Federal Circuit's caseload, the United States Department of 
Veterans Affairs (VA) is accelerating the processing of disability 
cases and pension claims that is also likely to result in a long-term 
increase in our caseload. Of 380,000 backlogged veterans' appeals, 
67,000 have reached the Board of Veterans' Appeals, and approximately 
200,000 of the remainder are expected to follow. With the benefit of 60 
veterans law judges and more than 400 supporting counsel because of 
increased funding by Congress, the Board decided 55,000 cases in fiscal 
year 2014 and is expected to decide approximately 57,000 cases in 
fiscal year 2015. While backlogs at the Board will continue, it is 
clear that decisions by the Board are accelerating.
    Despite the fact that the Board significantly increased the number 
of decisions in 2014, the number of appeals to the United States Court 
of Appeals for Veterans Claims (the Veterans Court) increased by just 
over 200 cases. This relatively small increase, however, does not 
readily reflect that the appeals rate that generated the increase 
occurred largely in the last 6 months of fiscal year 2014. Should 
appeals through fiscal year 2015 continue at the same rate, the 
Veterans Court will receive more than 1,000 additional appeals this 
year and as many as 1,000 more in 2016. As you know, this increasing 
pool of cases will ultimately result in decisions that are appealable 
to the Federal Circuit, and this number does not include several 
hundred decisions the Veterans Court will issue on petitions.
    Thus far, the Federal Circuit has not seen a marked increase in 
appeals from the Veterans Court. Nevertheless, with the mechanisms in 
place to dispose of increasingly large numbers of cases by the Veterans 
Court, I fully expect that the number of appeals to the Federal Circuit 
will increase this year and continue in fiscal year 2016. Prudence, 
therefore, dictates that this source of the Federal Circuit's caseload 
be carefully monitored as a potential structural change in our 
caseload. It is, however, too early to assess with specificity the 
magnitude of that increase, and as a result, I have not requested any 
increase in resources to address it. Recognizing that delayed justice 
for our veterans and their families is unacceptable, I will monitor the 
caseload increases from the Veterans Court, and I will notify you as 
soon as I believe additional resources are needed by the Federal 
Circuit.
    Last year's budget statement cited a third source of caseload 
increase at the Federal Circuit, characterized as being imminent, 
though likely temporary. The sequestration in fiscal year 2013 resulted 
in a flood of furlough appeals being filed with the Merit Systems 
Protection Board (MSPB) by Federal employees who were furloughed 
because of automatic spending cuts. As of September of 2013, more than 
32,000 furlough appeals had been filed at the MSPB. This was in 
addition to the average of 6,000 appeals received annually on other 
matters that are appealable to MSPB under the law. While MSPB is poised 
to make significant progress in processing the existing inventory of 
appeals in fiscal year 2015, it is likely MSPB will start fiscal year 
2016 with a significant number of appeals in the regional offices and 
petitions for review at headquarters. As these appeals and petitions 
result in decisions, if a Federal employee's case fails at the MSPB, 
that employee may appeal to the Federal Circuit.
    The Federal Circuit has yet not received a significant portion of 
MSPB furlough cases and it is impossible to predict with certainty how 
many of these appeals might survive MSPB review. Nevertheless, it is 
prudent to plan for a significant number of these cases to be appealed 
to the Federal Circuit and, given the permanent increase in staff at 
the MSPB and its view that its caseload will be at historic levels in 
2015 and beyond due to changes in the law, I cannot discount that these 
circumstances do, indeed, portend a third structural change that will 
drive an increase in the Federal Circuit's caseload. In acknowledging 
this, however, I do not anticipate such a large increase in MSPB cases 
in 2016 that would require resources beyond those I have requested in 
our annual appropriation. I will rely on prudent management of the 
resources you provide, recognizing that it will be my duty to request 
more, if it becomes clear that more is needed. In the interim, the 
impending furlough cases serve to reinforce the need for the Federal 
Circuit to complete filling current staff vacancies and training those 
new employees so that they are able to respond to the organizational 
stress an increase in MSPB cases seems likely to impose in the 
foreseeable future.
    Finally, I would like to address the court's plan to reduce 
facilities costs. House Report 113-172 required this court to report on 
a plan by July of 2014. That report was developed in consultation with 
the Judicial Conference of the United States and the General Services 
Administration and was delivered on time. Consistent with that plan, 
the court is pursuing actionable alternatives to reduce, reallocate and 
reconfigure existing space that will support a reduction in facilities 
costs. I note that we have already met the 3 percent reduction goal set 
by the Judicial Conference of the United States for the Federal 
judiciary at large. While I believe there are still some prudent and 
achievable measures that the court can pursue on its own, ultimately, 
to make any further significant reduction in facilities costs, the 
Federal Circuit may have to request additional funding targeted for 
facilities alteration or perhaps new leases.
    Chairman Boozman, I would be pleased to provide any additional 
information that the subcommittee may require or to meet with 
subcommittee members or staff to discuss our budget request in further 
detail. Thank you for this opportunity to present my views.
                                 ______
                                 
 Prepared Statement of Timothy C. Stanceu, Chief Judge, United States 
                      Court of International Trade
    Chairman Boozman, Senator Coons, and members of the subcommittee:
    Thank you for providing me the opportunity to submit this statement 
on behalf of the United States Court of International Trade, which is 
established under Article III of the Constitution with exclusive 
nationwide jurisdiction over civil actions arising out of the 
administration and enforcement of the customs and international trade 
laws of the United States. As you know, the Court has its roots in the 
uniformity requirement of Article I, Section 8 of the Constitution 
(``all duties, imposts and excises shall be uniform throughout the 
United States'') and in that way serves a vital role that contributes 
to the Nation's economic strength.
    The Court's fiscal year 2016 budget request is $20,150,000, which 
is comprised of $2,005,000 for mandatory appropriations and $18,145,000 
for discretionary appropriations. The discretionary portion of the 
appropriations request represents an increase of $338,000, or 1.9 
percent, from the fiscal year 2015 enacted discretionary appropriations 
of $17,807,000. This modest increase reflects the necessary adjustments 
to the base in order to maintain current services, fund essential on-
going operations and initiatives, and provide for adjustments in pay 
and benefits. It also accounts for other inflationary factors applied 
to the base, including an increase in pro-rata costs paid to the 
Federal Protective Service (FPS) for the critical and necessary 
security of the Federal Complex (including the Court) in lower 
Manhattan. Further, it reflects adjustments for security costs paid to 
the U.S. Marshals Service for the Court's internal security officers.
    The Court remains committed to the efficient and conservative 
management of its resources through sound fiscal practices. The Court 
continues to utilize cost containment strategies in keeping with the 
overall administrative policies and practices of the Judicial 
Conference, particularly regarding security costs, equipment costs, 
technology, contractual obligations, and personnel. This is consistent 
with the Court's long-standing policy of requesting only funds that are 
absolutely needed for fulfilling the Court's judicial responsibilities, 
such as increases for pay, benefits, and other inflationary factors, 
and for essential on-going operations and initiatives of the Court.
    Currently, the Court is working actively with the General Services 
Administration to release space in the Courthouse to the U.S. Marshals 
Service. If this initiative is successful, it will reduce the Court's 
rent bill while simultaneously improving security. Additionally, I 
would like to note that in fiscal year 2014, the Court transferred 
$1.15 million to the Judiciary's Court Security Program to address 
critical security needs.
    The Court continues to meet the objectives set forth in its 
Strategic Plan through the use of its annual appropriation and the 
Judiciary Information Technology Fund. These objectives provide access 
to the Court through the effective and efficient delivery of services 
and information to litigants, the bar, the public, judges, and staff. 
For a national court, this access is critical to realizing the mission 
of resolving disputes by: (1) providing cost effective, courteous, and 
timely service; (2) providing independent, consistent, fair, and 
impartial interpretation and application of the customs and 
international trade laws; and (3) fostering improvements in customs and 
international trade law and practice, as well as in the overall 
administration of justice.
    Specifically, technology remains a critical component of the 
Court's commitment to high quality service to its various 
constituencies. To this end, the requested appropriation will enable 
the Court to support and maintain its information technology program. 
This entails cyclical maintenance and, when necessary, replacement, of 
hardware and software to ensure that the Court's infrastructure will 
continue to support its present and future technological and 
telecommunications needs. During fiscal year 2014, the Court used its 
Judiciary Information Technology Fund successfully to strengthen its 
technological capabilities by: (1) upgrading the Storage Area Network 
for the COOP site; (2) installing a secondary firewall for redundancy 
purposes; (3) executing maintenance agreements for computer hardware 
and software applications; (4) continuing its support of its video 
conferencing system, data network and voice connections, wireless 
infrastructure, and Virtual Private Network System (VPN); (5) 
installing hard drive encryption software for laptops; and (6) 
cyclically upgrading its laptops.
    In fiscal year 2015, the Court plans to expend funds on essential 
information technology projects to: (1) add redundancy to the core 
switch for the network; (2) upgrade the Polycom conference phone system 
from analog to digital; (3) upgrade and support existing software 
applications; (4) purchase new software applications to ensure the 
continued operational efficiency of the Court; (5) install virtual 
desktop infrastructure; (6) purchase log management software for the 
Court's network; (7) purchase document management software to 
streamline workflow for court staff; and (8) replace computer desktops, 
monitors and printers in accordance with the judiciary's cyclical 
replacement program. Additionally, the Court will continue to support 
its long-standing commitment to provide developmental and educational 
programs for staff on subjects pertaining to technology and job-related 
skills.
    In fiscal year 2016, the Court again will use its carry-forward 
balances in the Judiciary Information Technology Fund for information 
technology initiatives that support the Court's short-term and long-
term information technology needs. Additionally, the Court will 
continue to maximize the use and functionality of common and individual 
office space. This effort is part of the Court's on-going rent review 
process. The Court also will continue its cyclical replacement and 
maintenance program for equipment, furniture, and offices to help 
extend the useful life of equipment and furnishings. Moreover, the 
fiscal year 2016 request once again includes funds for the continued 
upgrade, support, and maintenance of the Court's internal and perimeter 
security systems. Further, the Court will seek to continue its efforts 
to address the educational needs of the bar and Court staff. Finally, 
the Court, in fiscal year 2016, will build on its prior efforts in 
cost-saving negotiations of contracts with GSA, FPS, and public and 
private companies.
    I personally extend my deepest appreciation to this subcommittee 
and the entire Congress for recognizing the needs of the Court by 
providing adequate funding in fiscal year 2015 to maintain current 
services so that the Court can fulfill its commitment to the 
administration of justice for all.
    The Court's ``General Statement and Information'' and 
``Justification of Changes,'' which provide more detailed descriptions 
of each line item adjustment, were submitted as part of the judiciary 
fiscal year 2016 Congressional Budget Justification. If the 
subcommittee requires any additional information, we will be pleased to 
provide it.

    Senator Boozman. Thank you very much, Judge Gibbons.
    Director Duff, it is good to have you here.
    Director Duff is kind of excited and nervous, not about the 
subcommittee today. He is an old University of Kentucky 
basketball player, so he has a lot going on, in that sense.
    We invite you to give your testimony on behalf of the 
Administrative Office of the U.S. Courts.
STATEMENT OF JAMES C. DUFF, DIRECTOR, ADMINISTRATIVE 
            OFFICE OF THE U.S. COURTS
    Mr. Duff. Thank you very much, Chairman Boozman, Senator 
Coons, Senator Lankford, members of the subcommittee. I am very 
pleased to be before you to present the fiscal year 2016 budget 
request for the Administrative Office of the United States 
Courts, and to support the overall request for the judiciary 
that Judge Gibbons will address.
    I join Judge Gibbons in thanking the subcommittee for the 
support it has provided the judiciary. We fully recognize the 
funding constraints that the subcommittee has faced in recent 
years and the difficult choices that have been necessary. We 
are all the more grateful in that environment for the priority 
that was placed on the funding requirements of the judiciary.

                  RETURN TO THE ADMINISTRATIVE OFFICE

    On January 1 this year, I returned to the Administrative 
Office to serve a second appointment as its director. I am very 
grateful to Chief Justice Roberts for the privilege of working 
for our Federal judiciary again. I am especially looking 
forward to working with you and this subcommittee on challenges 
that face the judiciary.

                     TEMPORARY DISTRICT JUDGESHIPS

    The Judicial Conference is once again indebted to this 
subcommittee for authorizing extensions of expiring temporary 
Article III judgeships in your annual appropriations bill. 
Without your action, the affected districts would be facing the 
loss of a judgeship upon the first judicial vacancy occurring 
after the expiration of the previous authorization.
    In fiscal year 2016, we will face the same fate as the 
existing temporary judgeships will expire beginning in April 
2016. If the Judiciary committees are unable to preserve these 
expiring judgeships, we urge you to include the necessary 1-
year extensions in your fiscal year 2016 appropriations bill to 
enable the work to continue in those districts where they are 
most needed. The workload in those districts is simply too 
great to lose judgeships that could take years to create and 
fill again.

                        CAPITAL SECURITY PROGRAM

    I also would like to thank the subcommittee for its support 
of the Judiciary Capital Security Program funded within the 
General Services Administration. This was an important new 
development that we worked on with GSA. CSP, or the Capital 
Security Program, was designed to address serious security 
deficiencies in existing court facilities where renovations are 
a viable alternative to new construction.
    Again, this is in the current environment of fiscal 
restraint and constraints. Recognizing that new courthouse 
construction was going to be challenging, we embarked upon this 
effort to address security concerns in courthouses where it is 
most needed.
    It has been a cost-effective means to achieve greater 
security at existing courthouses nationwide. CSP has projects 
currently underway in five facilities nationwide, including 
Lexington, Kentucky, with others in the planning stages. The 
President's budget request for GSA includes $20 million for the 
program in fiscal year 2016. We hope you will support the 
funding to continue this critically important program.
    Funding of the CSP is not, however, a substitute for new 
courthouse construction when it is otherwise needed. For those 
courts that not only have severe security deficiencies but also 
have a serious lack of space and deteriorated building 
infrastructure, the only feasible and economically viable 
resolution is new construction.

                          NASHVILLE COURTHOUSE

    I will echo Judge Gibbons' comments. We very much 
appreciate the administration's inclusion in the fiscal year 
2016 GSA budget request for $181.5 million for the new 
courthouse in Nashville, Tennessee, which is the Judicial 
Conference's top space priority. This is only the second time 
in 6 years that the President's budget has included funding for 
a project on the Judicial Conference's 5-year courthouse 
construction plan. So it is a recognition, I think, within the 
administration of the importance of this particular courthouse 
project.
    Without stable and consistent funding of courthouse 
construction by the GSA, the ability of the judiciary to carry 
out its constitutional mission of administering justice is 
significantly impaired.
    The Nashville courthouse project has been on the 5-year 
plan for nearly 20 years, and a total of $25.1 million has 
already been spent to acquire the site and building design. 
That is why this project we think is within the 
administration's budget, because it recognizes investments 
already made.
    A new courthouse is needed to resolve severe security, 
space, and operational deficiencies in the existing facility. 
We respectfully urge you to support the funding of the new 
Nashville courthouse in your fiscal year 2016 appropriations 
bill.

                            COST CONTAINMENT

    Senator Coons addressed cost containment in his opening 
statement, as did Chairman Boozman. Cost containment continues 
to be a primary focus of the judiciary. As Judge Gibbons 
describes in her written testimony at greater length, some 
cost-containment initiatives, however, require changes to 
existing law.
    Last year, we sought the assistance of this subcommittee to 
enact several legislative provisions that would result in 
savings to the judiciary. We appreciate that the conference 
agreement included one of those provisions. However, there are 
still several reforms endorsed by the Judicial Conference that, 
if enacted, will produce additional savings.

                   ROLE OF THE ADMINISTRATIVE OFFICE

    The Administrative Office (AO) was created by Congress in 
1939 to assist Federal courts in fulfilling their mission to 
provide equal justice under law. The AO does not operate as a 
headquarters for the courts, but rather provides support to the 
Judicial Conference and its 25 committees, as well as to more 
than 30,000 judicial officers and court employees.
    The AO develops and supports technology for the courts. It 
provides financial management and personnel services. And it 
conducts audits and reviews to ensure the continued quality and 
integrity of the Federal court operations.
    While the AO has evolved over the years to meet the 
changing needs of the judicial branch, service to all the 
courts remains our basic mission.

                    FISCAL YEAR 2016 BUDGET REQUEST

    The AO appropriation request for fiscal year 2016 totals 
$87.6 million. This is an increase of $3.2 million or a 3.8 
percent increase over the 2015 enacted level. It represents a 
current services budget--that is to say, there is no additional 
staff or program increases requested by the AO. Instead, the 
requested resources are necessary to support standard changes 
to pay and benefits, as well as requirements such as travel, 
communications, and supplies.

                            CLOSING REMARKS

    I fully recognize, as Judge Gibbons does, that fiscal year 
2016 will be a difficult year for you and your colleagues as 
you struggle to meet funding needs of the agencies and programs 
under your purview. In making your funding decisions, we urge 
you to consider the significant role that the AO plays in 
supporting the courts and the mission of the judiciary.
    Chairman Boozman, we appreciate the opportunity to appear 
before the subcommittee today. We thank you for the good work 
that you have done for us in the past. And we are pleased to 
address any questions you have today, of course.
    [The statement follows:]
                  Prepared Statement of James C. Duff
                              introduction
    Chairman Boozman, Senator Coons, and members of the subcommittee, I 
am pleased to appear before you to present the fiscal year 2016 budget 
request for the Administrative Office of the United States Courts (AO), 
and to support the overall request for the entire judicial branch.
    I join Judge Gibbons in thanking the subcommittee for the continued 
support it has provided the judiciary. We fully recognize the funding 
constraints the subcommittee has had in recent years in writing the 
annual Financial Services and General Government Appropriation bill. We 
know that difficult choices had to be made and greatly appreciate the 
priority that was placed on the funding requirements of the judiciary. 
We have a practice of refining our request throughout the year with the 
goal of seeking the minimum amount necessary to meet the needs of the 
courts. You can be assured that we will continue to provide the 
subcommittee with re-estimates of our fiscal year 2016 request 
throughout the year.
                            return to the ao
    On January 5, 2015, I returned to the Administrative Office to 
serve a second appointment as Director. I am grateful to Chief Justice 
Roberts for the privilege of working with our Federal judiciary again. 
From my first job in Chief Justice Burger's office 40 years ago, 
through later years as Counselor to Chief Justice Rehnquist, and then 5 
years as Director of the Administrative Office, from 2006 to 2011, my 
respect and admiration for the Federal judiciary has only grown. I look 
forward to working on the challenges that face the judiciary--from its 
operations to its administration, and I especially look forward to 
working closely with this subcommittee.
                     temporary district judgeships
    Once again, the Judicial Conference is indebted to this 
subcommittee for authorizing extensions of expiring temporary Article 
III judgeships in the annual appropriations bill. Without your action, 
the authorization of all ten existing temporary Article III judgeships 
would have expired and we would have risked losing judgeships in these 
courts upon the first vacancy--through death, retirement, or elevation 
to a higher court--occurring after their lapse date.
    In fiscal year 2016, we face the same fate. Without further action 
the temporary judgeships will expire beginning in April, 2016. If the 
House and Senate Judiciary Committees are unable to preserve these 
expiring judgeships, I urge this subcommittee to include the necessary 
1 year extensions for the following judicial districts: Alabama-
Northern, Arizona, California-Central, Florida-Southern, Kansas, 
Missouri-Eastern, New Mexico, North Carolina-Western, and Texas-
Eastern. The workload in these districts is too great to risk losing 
judgeships that in all likelihood will take years to create and fill 
again.
               new judgeships in high caseload districts
    It has been 13 years since Congress passed a bill authorizing 
additional district judgeships. The last comprehensive Article III bill 
was passed in 1990, two and a half decades ago. The Judicial Conference 
appreciates the subcommittee's inclusion of language in the fiscal year 
2014 and fiscal year 2015 appropriations bills authorizing new 
judgeships in seven districts struggling with extraordinarily high and 
sustained workloads (Arizona, California-Eastern, Delaware, Minnesota, 
New Mexico, Texas-Southern, and Texas-Western), as well as the 
conversion of three temporary judgeships to permanent (in Arizona, 
California-Central, and New Mexico). While this provision was dropped 
in conference, additional judgeships are still sorely needed. The 
Judicial Conference will soon be forwarding to Congress recently 
approved judgeship recommendations for 2015. We will be working with 
the Senate and House Judiciary Committees to hopefully enact a 
comprehensive judgeship bill this year and will keep the subcommittee 
apprised of our efforts.
                        capital security program
    I also would like to thank the subcommittee for its support of the 
Judiciary's Capital Security Program (CSP), funded as a special 
emphasis program within the General Services Administration's (GSA) 
Federal Buildings Fund. CSP was designed to address serious security 
deficiencies in existing courthouse buildings where physical 
renovations are viable alternatives to new construction. This program 
has been a valuable, cost-effective solution to achieving greater 
security at existing courthouses nationwide.
    Five projects are currently underway using fiscal year 2012 and 
fiscal year 2013 funding--in Brunswick, Georgia; Benton, Illinois; 
Lexington, Kentucky; San Juan, Puerto Rico; and St. Thomas, Virgin 
Islands. Fiscal year 2015 funding will support projects in Columbus, 
Georgia; Monroe, Louisiana; and Texarkana, Texas/Arkansas. For fiscal 
year 2016, the President's budget request for GSA includes $20 million 
for the Judiciary's Capital Security Program which will support 
projects at courthouses in Raleigh, North Carolina and Alexandria, 
Louisiana. We hope you will continue to support this successful program 
that improves the security provided to occupants and visitors at 
Federal courthouses.
                        courthouse construction
    Funding of the Judiciary's Capital Security Program should not, 
however, be a substitute for new courthouse construction when it is 
otherwise needed. That is, while the CSP may address a court's 
immediate security deficiencies, it does nothing to address other 
courts that not only have severe security deficiencies, but also have a 
serious lack of space, and deteriorated building infrastructure. In 
these latter circumstances, the only feasible and economically viable 
resolution is to build a new courthouse or annex to meet the 
operational needs of the court.
    We very much appreciate the administration's support of new 
courthouse construction funding in its fiscal year 2016 budget request 
for the GSA. The President's budget requests $181.5 million for a new 
courthouse in Nashville, Tennessee, which is the Judicial Conference's 
top space priority. This is only the second time in 6 years that the 
President's budget has included funding for a project on the Judicial 
Conference's Five Year Courthouse Construction Project Plan (Five-Year 
Plan). Because GSA builds our facilities, these monies come under the 
jurisdiction of the executive branch. In some years this has worked 
fine, when the President's budget represented the space priorities of 
the Judicial Conference as outlined in its Five-Year Plan. But too 
often this has not been the case. Without stable and consistent funding 
of courthouse construction by the GSA, the ability of the judiciary to 
carry out its constitutional mission of administering justice is 
significantly impaired.
    Over the last 10 years, the judiciary has taken strategic steps to 
improve its courthouse facilities planning process, with a focus on 
cost containment and development of an objective, consistently applied 
methodology. This effort has been significant and has resulted in only 
the most important project recommendations going forward, and at a 
reduced cost. The designs of courthouses on the Five-Year Plan will 
result in lower cost buildings due to the adoption of courtroom sharing 
policies as well as the removal of projected judgeships from courtrooms 
and chambers construction plans.
    The Nashville courthouse project has been on the Five-Year Plan for 
nearly 20 years and a total of $25.1 million already has been spent to 
acquire the site and design the building. The construction of the 
Nashville courthouse is requested to resolve severe security, space, 
and operational deficiencies in the existing facility. The Estes 
Kefauver Federal Building in downtown Nashville was built more than 60 
years ago, has an insufficient number of courtrooms for district 
judges, and due to space shortages all magistrate judges must use 
hearing rooms instead of courtrooms. This exacerbates issues related to 
security and safety. Further, the building houses 17 different Federal 
entities and there are no separate circulation patterns for judges, the 
public, and prisoners. We respectfully urge you to support the funding 
of the new Nashville courthouse in your fiscal year 2016 Appropriations 
bill.
          legislative initiatives to increase cost containment
    Cost containment continues to be a primary focus of the judiciary, 
as Judge Gibbons describes in her testimony. AO staff, through their 
support of the Judicial Conference and its committees, is heavily 
involved in these cost-containment efforts. While there are many 
policies and practices that the judiciary has been able to implement to 
achieve savings, some require changes to existing law. Absent a general 
``Courts Improvement Bill'' or similar legislative vehicle, last year 
we sought the assistance of this subcommittee to include several 
legislative provisions in the annual appropriations bill that would 
result in savings to the Judiciary's Probation and Pretrial Services 
program without any loss in the quality of services. We appreciate that 
the fiscal year 2015 conference agreement included one of our requested 
provisions that removed from law an unnecessary reporting requirement; 
however, there are still several reforms endorsed by the Judicial 
Conference that, if enacted, would produce additional cost savings.
    For example, the Judicial Conference has endorsed the sharing of 
probation officers among Federal judicial districts. Section 3602 of 
title 18, United States Code, requires a probation officer to work 
``within the jurisdiction and under the direction of the court making 
the appointment.'' Amending this statute to allow an officer to serve 
in another district with the consent of the appointing court, would 
facilitate the sharing across district lines of officer positions 
requiring special knowledge, such as sex-offender specialists, cyber-
crime specialists, and search team members. Such a sharing arrangement 
will conserve resources by allowing the districts to avoid the higher 
salary costs associated with these specialized officers, which can be 
as much as $15,000 more than a typical probation officer. For instance, 
a probation officer in the Eastern District of New York who has been 
trained in supervising sex offenders with computer monitoring 
conditions might also be able to handle those types of cases in the 
Southern District of New York or in the District of New Jersey, thereby 
relieving those districts from the obligation of hiring and training 
their own specialists.
    In addition, this change could lower travel costs by allowing 
officers who work in one district to supervise offenders who reside in 
a neighboring district, which has its probation office farther from 
where offenders live. This option may be especially useful in 
supervising offenders from Indian reservations, which may straddle 
multiple judicial districts. For example, the Districts of Arizona and 
New Mexico both include the Navajo Indian reservation. Currently, 
officers from both districts must supervise cases on the reservation, 
which means duplicating efforts to learn the territory, develop 
relationships with tribal officials, and foster resources for 
offenders. If, however, officers in one of the districts were 
authorized to work across district boundaries, officers from one 
district could assume responsibility for supervising all of the 
offenders on the reservation, regardless of which district the offender 
resides. Alternatively, such arrangements could result in officers 
being assigned to cases not based on the district of supervision, but 
based on proximity to the closest probation office. For instance, 
officers from the Flagstaff probation office in the District of Arizona 
must travel 223 miles to visit offenders from the Round Rock region of 
the reservation. If probation officers from the Farmington probation 
office in the District of New Mexico were authorized to work across 
district boundaries, however, they would only need to travel 118 miles 
to visit the same offenders. I hope you will consider the inclusion of 
this provision in your fiscal year 2016 Appropriations bill.
                   role of the administrative office
    Created by Congress in 1939 to assist the Federal courts in 
fulfilling their mission to provide equal justice under law, the AO is 
a unique entity in government. Neither the executive branch nor the 
legislative branch has any comparable organization that provides the 
broad range of services and functions that the AO performs for the 
judicial branch.
    Unlike most executive branch entities in Washington, the AO does 
not operate as a headquarters for the courts. The Federal court system 
is decentralized, although the AO does have management oversight 
responsibilities over the court security program, the probation and 
pretrial services program, the defender services program, and our 
national information technology programs.
    AO support to the Judicial Conference and its 25 committees is a 
cornerstone of this structure. The Conference committees, which we 
staff, not only deal with important issues of judicial administration 
and policy, but they are constantly exploring ways to cut costs, work 
more efficiently in their program areas, and oversee auditing functions 
for the branch. The AO develops and supports the application of new 
technology for the courts; provides financial management services, and 
personnel and payroll support; and conducts audits and reviews to 
ensure the continued quality and integrity of Federal court operations. 
The AO has evolved over the years to meet the changing needs of the 
judicial branch, but service to the courts has been and remains our 
basic mission.
                   improving judicial administration
    The AO is working in coordination with the courts to implement 
several national technology solutions that will improve judicial 
administration. A major initiative is a ``next generation'' case 
management/electronic case filing (CM/ECF) system we are deploying 
nationwide to harness improved technologies to meet the evolving needs 
of judges, clerks of court offices, the bar, debtors, litigants, and 
other users. CM/ECF next generation is currently deployed in two 
circuit courts and implementation nationwide will occur over the next 
several years. We are also implementing the Judiciary Integrated 
Financial Management System (JIFMS), which will provide a single system 
of record for financial and procurement processes throughout the 
judiciary, including all Federal court units, Federal defender offices, 
and the Administrative Office. JIFMS is currently deployed to the 
national courts, the AO and several circuit court units, and its full 
deployment should be completed by December 2017. In addition, a 
Judiciary Electronic Travel System (JETS) will provide a user-friendly, 
paperless, Web-based travel system that will reduce errors and 
streamline travel planning and vouchering. JETS will be available to 
court units and Federal defender offices beginning in the Fall of 2015. 
Finally, eVoucher is a new system for issuing payments electronically 
to Criminal Justice Act court-appointed counsel, replacing the current 
paper-based system, and streamlining the submission and review of 
vouchers and improving efficiency and oversight by providing automatic 
error checks. Currently, eVoucher is deployed in 75 of 106 court units 
and full implementation is expected in early calendar year 2016.
                            ao restructuring
    When I first became Director of the AO in July 2006, I launched a 
review of the organization and its mission to ensure that the structure 
and services provided by the AO were appropriate and cost-effective, 
and that they addressed the changing needs of the courts.
    That review resulted in a 2007 report providing recommendations to 
enhance AO services to the courts. During fiscal year 2008, improvement 
initiatives were pursued through the development of the Strategic 
Direction of the AO: fiscal years 2009-2013 to guide the AO's 
activities. We then began to integrate the Strategic Plan into our 
major initiatives process, focusing on short- and long-term objectives 
to help the AO support the judiciary through the economic downturn and 
future constrained budgets. In January 2011, I formed a cost-
containment task force that reviewed AO organizational, policy, and 
process alternatives, and developed specific actions to contain costs 
in fiscal years 2012, 2013, and beyond. Finally, in June 2013, then-
Director Judge Thomas Hogan announced a major restructuring of the AO 
to be implemented by the end of fiscal year 2013. The new 
organizational structure is now fully in place.
    I offer this as background to demonstrate that organizational 
change focused on meeting the needs of the courts requires a thoughtful 
and strategic approach to achieve continuous improvement in service. 
The positive results of the restructuring are evident throughout the 
AO, and the improvements make the AO's service to the courts more 
effective and efficient.
                   ao fiscal year 2016 budget request
    The Administrative Office appropriation request for fiscal year 
2016 totals $87,590,000. This is an increase of $3.2 million, or 3.8 
percent, over the 2015 enacted level and represents a current services 
budget--there are no additional staff or program increases requested.
    Specifically, the requested increase is necessary to support 
adjustments to base for salaries and benefits, and recurring 
requirements such as the cost of travel, communications, service 
agreements, and supplies. The AO account is financed through direct 
appropriations, reimbursements from other judiciary accounts, and the 
use of non-appropriated funds. In fiscal year 2016, the judiciary 
expects to have fewer non-appropriated funds available than it did in 
fiscal year 2015. As a result, in order to maintain current services, 
the increase also includes $500,000 to replace the slightly lower 
estimate of non-appropriated funds available to the AO in 2016.
                               conclusion
    Chairman Boozman, Senator Coons, and members of the subcommittee, 
the work performed by the AO is critical to the efficient and effective 
operation of the U.S. courts. The AO provides administrative support to 
25 Judicial Conference Committees, 2,352 judicial officers, and more 
than 28,500 court employees. In addition to our service to the courts, 
the AO works closely with our colleagues in the executive branch and 
especially with the Congress, in particular the Appropriations 
Committee and its staff, to provide accurate and responsive information 
about the Federal judiciary.
    I fully recognize that fiscal year 2016 will be another difficult 
year for you and your colleagues as you struggle to meet the funding 
needs of the agencies and programs under your purview. I urge you, 
however, to consider the significant role the AO plays in supporting 
the courts and the mission of the judiciary. Our budget request for the 
AO does not seek new resources for additional staff or programs; 
instead, our request represents the minimum investment needed simply to 
maintain the organization's current activities and services. We urge 
you to support this funding.
    Thank you again for the opportunity to be here today. I would be 
pleased to answer your questions.

              IMPACT OF A HARD FREEZE IN FISCAL YEAR 2016

    Senator Boozman. Thank you, both, very much for your 
testimony.
    At this time, we will proceed to our questioning, where 
each Senator will have 7 minutes. If there is sufficient 
interest, then we will have additional rounds.
    Flat spending caps will make discretionary funding very 
tight in fiscal year 2016, as we all know. What would be the 
impact on the judiciary if it had to operate the fiscal year 
2015 funding level for fiscal year 2016?
    Judge Gibbons. The effect is pretty dramatic. In the 
salaries and expenses account, we would have to reduce 520 
positions or 260 full-time equivalent (FTE) below 2015 year-end 
levels. In the defender account, we would have to defer panel 
attorney payments for a month. The court security account, we 
would have to defer $6.3 million for enhancements for staffing, 
training, and security-related IT developments. We would have 
to cut $22 million, which is almost 50 percent, for court 
security systems and equipment. We think that the fees of 
jurors account could meet requirements.
    The result of the elimination of staffing positions in the 
court would be reductions in supervision of offenders, which, 
of course, carries with it a serious public safety risk, delays 
in case processing, and decreased public availability of 
courts.
    In the IT area, we might face delays in the implementation 
of the next generation of the Case Management/Electronic Case 
Files (CM/ECF) system, which is our electronic case filing 
system, which has been a vehicle for doing more with less.
    I think the reason, in order to understand why a hard 
freeze hits us so hard, is that if you look at the overall 
increase we are requesting, it is a total of $264 million in 
discretionary appropriations, or 3.9 percent, and $209 million 
of that are escalating costs for the judiciary, rent, benefits, 
general inflation. We do give our employees a COLA. We include 
it in our request. If the executive branch receives a cost of 
living adjustment (COLA), we think it puts us in a very 
difficult position, as an employer, not to do that. Also we 
have ongoing IT services and implementation.
    Those are our adjustments to base. Only 0.7 percent of that 
3.9 percent is for improvements or enhancements. As I noted, 
many of those go to helping us save money down the road.

                     TEMPORARY DISTRICT JUDGESHIPS

    Senator Boozman. Very good.
    For the past several years, the financial services bill has 
included language extending temporary Article III judgeships. 
Please explain why it is important to continue extending those 
judgeships and the impact if the judgeships were not extended.
    Mr. Duff. Thank you for the question, Chairman Boozman. It 
is very important that the temporary judgeships either be 
extended or permanent judgeships created out of those temporary 
judgeships. I think the Judicial Conference in its recent March 
meeting is recommending ultimately making permanent judgeships 
of 9 out of the 10 temporary judgeships.
    But it is very important, if new judgeships can't be 
created, that the temporary judgeships are extended, because 
the workload in those districts where the temporary judgeships 
exist is so extreme. That is why the judgeships were created to 
begin with, to address that workload. So if the extensions 
aren't granted, the workload moves to the other judges on those 
courts, and it would be extraordinarily burdensome for them to 
pick up the workload.
    [Clerk's note.--Subsequent to the hearing, Director Duff 
provided the following additional information:]

    The table below illustrates the importance of extending 9 of the 10 
temporary district judgeships and the impact on workload without 
extensions. For example, weighted filings per judgeship in Texas-
Eastern was 1,331 in fiscal year 2014. Without an extension that 
caseload would increase to 1,521 filings per judgeship.

------------------------------------------------------------------------
                                                               Weighted
                                                Fiscal Year  Caseload in
                                 Authorization      2014       District
            District                Expires       Average     With Loss
                                                  Weighted        of
                                                  Caseload    Temporary
------------------------------------------------------------------------
Texas-Eastern..................     9/30/2016         1,331        1,521
Arizona........................      7/8/2016           742          804
Florida-Southern...............     7/31/2016           695          736
California-Central.............     4/27/2016           664          689
New Mexico.....................     7/14/2016           598          698
Alabama-Northern...............     9/17/2016           381          435
Missouri-Eastern...............     5/20/2016           374          427
Kansas.........................     5/21/2016           366          439
North Carolina-Western.........     4/28/2016           351          439
Hawaii *.......................      4/7/2016           286          381
------------------------------------------------------------------------
* Hawaii not recommended for extension or conversation from temporary to
  permanent.

                      NASHVILLE COURTHOUSE PROJECT

    Senator Boozman. GSA's 2016 budget request includes $182 
million for the judiciary's top construction priority, a new 
courthouse in Nashville. Given the backlog of courthouse 
construction projects, a new courthouse in Nashville has been 
on the judiciary courthouse construction project plan for 
almost 20 years.
    Can you all describe the judiciary's process for selecting 
a courthouse, your construction priorities in that regard, 
including why a new courthouse in Nashville is the judiciary's 
top space priority?
    Mr. Duff. Yes, Mr. Chairman. We did, at the urging of GAO, 
restructure, somewhat, our formula for prioritizing new 
courthouse construction. There are several factors that go into 
that analysis, security being one of them. We carved out 
security needs separately, as I mentioned, in the opening 
remarks. We did that to enable us to address security needs in 
courthouses where an entirely new courthouse wouldn't be 
possible, given the fiscal constraints we are operating under.
    But under our new space planning process for courthouse 
construction, there are very important criteria that go into 
those decisions. We have come up with a new listing, if you 
will, of courthouse construction priorities. Nashville remains 
at the top that list, in part because not only does it meet the 
new criteria, but also because so much has already been 
invested in the design and study.
    As you mentioned, Mr. Chairman, it has been on the 5-year 
plan for now 20 years. So investments have already been made. 
The site has been purchased and partially cleared for 
construction. And that is why the Nashville courthouse remains 
at the top of that list.
    Judge Gibbons. Actually, while security is taken into 
account, it values security less than was previously the case, 
under the old methodology.
    Nevertheless, the Nashville courthouse has both just 
really, really serious operational needs, serving the number of 
judges it was never intended to serve, and quite serious 
security needs.
    I am personally familiar with that courthouse. I was a law 
clerk in it. I have been in it recently. It is kind of a mess 
for the judges who hold court there.
    Senator Boozman. Thank you.
    Senator Coons.

                       COST CONTAINMENT PROPOSALS

    Senator Coons. Thank you, Chairman Boozman.
    So first, if we might talk further about cost-containment, 
you put forward some legislative proposals that will save 
money. I think last year it was a proposal to eliminate an 
annual report. This year it is a proposal to allow the sharing 
of probation services among districts.
    I wondered if you would just elaborate on why that might be 
a good idea and how it might save some money.
    And then also, if we could talk about some of the space 
reduction initiatives and whether these involve court staffing 
only, or whether there is more that could be done with 
courthouses not fully occupied due to there not being a 
sufficient number of judges.
    And then I want to talk about court security.
    Judge Gibbons. Well, I will start. This is not the order 
you asked, but if we may start with rent, then court security 
from the standpoint of cost-containment, and then move on to 
the legislation. There is one, in particular, that I know 
Director Duff will want to address. I will try to move through 
this pretty quickly.

                         CONTAINING SPACE COSTS

    We have done a lot of things in the past with respect to 
space. Our current rent validation effort really involves a 
three-pronged approach. Working with our appropriations 
subcommittees, we agreed to implement a goal of a 3 percent 
reduction in our occupied space by the end of fiscal year 2018. 
Going hand-in-hand with that is a requirement for no-net-new, 
meaning if you acquire new space, you have to give up space. It 
doesn't apply to new courthouse construction like Nashville, 
but it does apply otherwise in the system.
    The third component is a circuit-wide plan. That really 
provides the blueprint for how we would reach goals one and 
two. The circuits have all done their plans. The process is 
moving forward very well. We believe we are well on target to 
meet our goal, and we are pleased with the way that that is 
progressing.
    [Clerk's note.--Regarding Senator Coons' question about 
whether space reduction initiatives apply only to court support 
staffing, subsequent to the hearing Judge Gibbons provided the 
following additional information:]

    The Judiciary's space reduction initiatives apply to our entire 
space portfolio, regardless of who is using a particular space and for 
what purpose. It is true that most of the space reduction projects 
undertaken so far have focused on staff-occupied space. Those are the 
projects that have been identified and pursued by the circuits, based 
on their local decision making. That said, there are a number of space 
reduction projects that have resulted in the reduction, consolidation 
or elimination of space occupied or used by judges. For example, the 
Judiciary has closed several non-resident facilities, where courtrooms 
existed for the use of judges who were not stationed at that facility 
full time. We have also moved bankruptcy judges out of leased space and 
into courthouses in several locations. In addition, we have engaged in 
the creative redesign of some chambers space, resulting in the sharing 
of judges' conference rooms and other facilities. We will continue to 
consider and approve such projects whenever they are proposed and shown 
to be meritorious.

                    INTEGRATED WORKPLACE INITIATIVE

    Along the way, this is one of the areas in which there is a 
need to spend a little money to save money. That is why our 
budget requests $25 million for some renovations that will 
enable us to use less space. We have an initiative underway--we 
give everything a name--called the integrated workplace 
initiative. The idea is, folks work differently today. Our 
probation officers work in the field more. So we have developed 
sort of a new workplace that accommodates that, and it occupies 
less physical space. There is telecommunicating, there is being 
outside the office, all those things.
    But sometimes you have to make renovations to do that. We 
have two or three projects, Chicago, I think in Phoenix and 
Tucson. It seems like there is one other that go to our 
implementation of that.
    [Clerk's note.--Subsequent to the hearing, Judge Gibbons 
provided the following additional information:]

    Following are brief summaries of Integrated Workplace Initiative 
(IWI) projects underway:
Project in Demolition and Construction Phase
  --Chicago, Illinois. The Northern District of Illinois probation 
        office will save $1.4 million in estimated annual rent by 
        reducing its space footprint 55 percent and relocating from 
        leased space to a Federal building. This project is anticipated 
        to be completed in November 2015.
Projects in Concept Design Phase
  --San Juan, Puerto Rico. The District of Puerto Rico probation office 
        will save $300,000 in estimated annual rent by releasing 5,800 
        sq. ft. in a Federal building and Federal courthouse. There is 
        no estimated completion date at this time.
  --Phoenix and Tucson, Arizona. The District of Arizona probation 
        office will save $300,000 in estimated annual rent by releasing 
        7,000 sq. ft. in a Federal building in Phoenix. It will save 
        another $400,000 in estimated annual rent by releasing 10,000 
        sq. ft. and relocating staff from leased space to the Federal 
        courthouse in Tucson. There is no estimated completion date at 
        this time.
  --Dallas, Fort Worth, and Arlington, Texas. The Northern District of 
        Texas probation office is working to assess options to reduce 
        space in Federal buildings and courthouses located in Dallas 
        and Fort Worth, and in leased space in Arlington. The project 
        is being assessed in conjunction with other space reductions 
        projects underway in Dallas and Fort Worth involving the 
        District and Bankruptcy Courts. There is no estimated savings 
        or completion date at this time.
  --Houston, Laredo, Brownsville, and Corpus Christi, Texas. All court 
        units in the Southern District of Texas are working to assess 
        options to reduce their respective space allocations in a 
        Federal courthouse in Houston. In Laredo, the probation office 
        is working to release leased space and to relocate in a Federal 
        courthouse. In Corpus Christi, the probation office is working 
        to reduce its space allocation in a Federal building and 
        courthouse. There is no estimated savings or completion date at 
        this time.
  --Washington, District of Columbia. A national demonstration project 
        at the Administrative Office involves co-locating the nearly 70 
        staff from four Facilities and Security Office divisions into 
        one space on the first floor of the Thurgood Marshall Federal 
        Judiciary Building. Total occupied space will be reduced by up 
        to 25 percent and the design fully incorporates IWI mobility 
        concepts. The space will include systems furniture and movable 
        walls to allow for flexible space configuration. The design 
        process for this project is now underway. The project will 
        serve as a working example for judges and court unit executives 
        who travel to Washington, DC to experience first-hand what an 
        IWI project looks like and to then consider something similar 
        for their court.

                   JUDICIARY CAPITAL SECURITY PROGRAM

    Senator Coons. I have other questions I would love to get 
to, if you could briefly speak to the Capital Security Program 
and how that investment will reduce----
    Judge Gibbons. It has been a great way for us to take 
smaller projects and try to achieve good security improvements 
while using lesser amounts of money. It has been very 
important.
    We have a listing of improvements that we could provide to 
you. One of particular interest to this subcommittee might be 
the one in Texarkana, Arkansas, that is being carried out at 
this time.
    If you want more about that, I am full of information. But 
if you would like for us to move onto legislation, we would do 
that.
    [Clerk's note.--Subsequent to the hearing, Judge Gibbons 
provided the following additional information:]

    Following are brief summaries of Capital Security projects either 
planned or underway:

  --Federal Building and U.S. Courthouse, Monroe, Louisiana. $6.1 
        million (fiscal year 2015 funding). Security deficiencies at 
        this courthouse would be addressed by enclosing a sally port, 
        adding one or two elevators (for prisoners and judges), and 
        reconfiguring/constructing new corridors.
  --U.S. Courthouse and Post Office Building, Texarkana, Texas/
        Arkansas. $7.2 million (fiscal year 2015 funding). A number of 
        security deficiencies at this courthouse will be addressed by 
        this Capital Security project. It will provide secure, covered 
        parking for judges. It will consolidate U.S. Marshals space 
        from two locations to one location within the courthouse, and 
        enclose a sally port. The project will also add elevators and 
        enhance building corridors to create separate circulation 
        patterns for judges and prisoners.
  --Ron De Lugo Federal Building, St. Thomas, U.S. Virgin Islands. $20 
        million (fiscal year 2013 funding). The scope of this capital 
        security project includes new judge and prisoner elevators, a 
        judges' garage, a U.S. Marshals Service sally port, and other 
        security improvements to the site. An architecture/engineering 
        contract was awarded and the project entered the design phase 
        in February 2015.
  --Frank M. Scarlett Building, Brunswick, Georgia. $5.5 million 
        (fiscal year 2012 funding). Security deficiencies at this 
        courthouse are being addressed by building entry improvements, 
        reconfiguring corridors, adding elevators, enclosing a sally 
        port, and creating secure parking for judges. The design is 
        underway, with anticipated completion of construction in 
        January 2016.
  --Federal Building and U.S. Courthouse, Benton, Illinois. $4.7 
        million (fiscal year 2012 funding). Security deficiencies at 
        this courthouse are being addressed by reconfiguring/
        constructing new corridors, adding an elevator, enclosing a 
        sally port, and constructing visual barriers. Construction was 
        completed in January 2015 and the court is currently occupying 
        the renovated space.
  --U.S. Courthouse and Post Office, Lexington, Kentucky. $6.7 million 
        (fiscal year 2012 funding). Security deficiencies at this 
        courthouse are being addressed by reconfiguring/constructing 
        new corridors, adding elevators, enclosing a sally port, and 
        constructing visual barriers. The design-build contract for 
        this project is in the process of being awarded, with the 
        anticipated completion of construction in September 2016.
  --Hato Rey Complex, Clemente Ruiz-Nazario U.S. Courthouse and 
        Federico Degetau Federal Building, San Juan, Puerto Rico. $3.1 
        million (fiscal year 2012 funding). Security deficiencies at 
        this courthouse are being addressed by reconfiguring/
        constructing new corridors and adding elevators for prisoners. 
        The project is currently under construction and is on time and 
        under budget. The anticipated completion of construction is May 
        2015. A CSP study is currently underway in Puerto Rico to 
        evaluate additional significant security concerns not addressed 
        by the fiscal year 2012 project.

    In addition, the judiciary has requested $20 million for CSP 
projects in fiscal year 2016. Funds are requested for the following 
locations (with project cost estimates subject to verification by GSA):

  --Terry Sanford Federal Building, Raleigh, North Carolina. $11 
        million. Security deficiencies at this courthouse could be 
        addressed by adding and/or reconfiguring two or three elevators 
        and constructing additional secure corridors.
  --U.S. Post Office and Courthouse, Alexandria, Louisiana. $9 million. 
        Security deficiencies at this courthouse could be addressed by 
        enclosing judges parking and providing an elevator and a 
        corridor addition to allow the judges secure circulation. The 
        U.S. Marshals Service would have new space that includes 
        operations, an enclosed sally port, holding cells, a prisoner 
        elevator and an interlock corridor for secure prisoner 
        transport.

              SHARING PROBATION OFFICERS ACROSS DISTRICTS

    Senator Coons. What is the proposal and how would it save 
money, Mr. Duff?
    Mr. Duff. Senator Coons, you asked about some legislative 
proposals where there may be some cost savings, and we are 
grateful for the conference agreement in the last Congress on 
one of those, which had to do with reducing an unnecessary 
reporting requirement, which is a cost savings.
    Our probation and pretrial services program, another 
suggestion that we are urging in the way of a legislative fix 
is permitting probation officers appointed in one district to 
perform services for another district, with the consent of the 
appointing court. I will give you an example of where there 
could be cost savings, if the prohibitions were lifted as to 
sharing probation officers or allowing them to travel outside 
their districts.
    An officer from the Flagstaff Probation Office in the 
District of Arizona has to travel 223 miles to visit offenders 
from the Round Rock region of the reservation there. If 
probation officers from the Farmington Probation Office in the 
District of New Mexico were permitted and authorized to work 
across their district boundaries, they would need to travel 
only 118 miles to visit the same offenders.
    So given the location of these offices, we think, if 
officers are allowed to travel outside their districts, it 
would actually result in significant cost savings over the long 
run.
    [Clerk's note.--Subsequent to the hearing, Director Duff 
provided the following additional information:]

    In addition to the example I cited of the benefits of sharing 
probation officers across large judicial districts, such sharing 
arrangements could also conserve resources by enabling districts to 
avoid the higher salary costs associated with officers with specialized 
supervision skills, which can be as much as $15,000 more than a typical 
probation officer. For example, a probation officer in the Eastern 
District of New York who has been trained in supervising sex offenders 
with computer monitoring conditions might also be able to handle those 
types of cases in the Southern District of New York and in the District 
of New Jersey, thereby relieving those districts from the obligation of 
hiring and training their own specialists.

                     NEED FOR ADDITIONAL JUDGESHIPS

    Senator Coons. Mr. Duff, you had a conversation with the 
chairman about temporary judgeships. Let me just ask a question 
on that, if I might.
    If I understand correctly, we haven't had a new 
authorization, a broad review and authorization, since 1990 of 
the number of Federal judgeships required in the Judicial 
Conference. Its most recent report is now requesting 73 new 
judgeships, as well as the conversion of nine of the temporary 
to permanent.
    But there are truly acute shortages in several courthouses 
around the country, in California, Texas, and Delaware. What 
sort of impact does it have on litigants, what sort of impact 
does it have on timely access to justice, when you have 
significantly overburdened courthouses in certain places? And 
what sort of workload leads you to deem a particular courthouse 
acute in its shortage?
    Mr. Duff. The courts you mentioned, certainly the border 
courts that you identified, are severely burdened, as are a lot 
of bankruptcy proceedings and courts in Delaware.
    The border court judges, they are carrying workloads 
sometimes in the range of 800 to 900 cases per year. That is 
just unmanageable. So we are doing the best we can in moving 
judges, in inter-circuit assignments, moving judges to help out 
in those districts.
    But your question is a very good one, concerning the burden 
it places not only on the courts but on those we serve within 
the court system, and those who appear before the courts.
    [Clerk's note.--Subsequent to the hearing, Director Duff 
provided the following additional information:]

    Regarding the workload standards that are used to determine whether 
a new district judgeship is needed, the Judicial Conference uses a 
threshold of 430 weighted filings per authorized judgeship in a 
judicial district as a starting point for considering an additional 
judgeship. The 430 threshold for a new district judgeship applies to 
what filings per judgeship in a district would be after a new judgeship 
is created, unless certain circumstances apply. For this reason, 
judicial districts that are candidates for new judgeships currently 
have filings well above the 430 threshold.

                     DELAYS IN OVERBURDENED COURTS

    Senator Coons. What would be a typical delay, length of 
time, in one of these overburdened courts, from filing to first 
hearing to resolution?
    Mr. Duff. I don't know about a typical delay, but it is 
clear that the courts can't keep up with the caseload, if 
individual judges are being asked to preside over 800 or 900 
cases a year.
    [Clerk's note.--Subsequent to the hearing, Director Duff 
provided the following additional information:]

    Speedy trial dictates for Federal criminal cases, including the 
Sixth Amendment and the Speedy Trial Act--which establishes specific 
time limits between various stages of Federal criminal proceeding--
necessitate that Federal judges give priority to criminal cases over 
civil cases. Delays in civil cases are dependent on the size and 
complexity of the case. The impact on litigants is that delays in civil 
cases can increase attorneys' fees in order to keep the case active, or 
can result in a plaintiff feeling pressured to settle a case due to an 
uncertain timeline for going to trial. To address caseload needs in 
overburdened judicial districts, the Judiciary uses visiting judges 
from around the country to assist with criminal and civil dockets.

    Senator Coons. I routinely hear complaints about years of 
delays before Federal filings are ultimately resolved in some 
of the most overburdened courts.
    Judge Gibbons. I am sure that is true in courts like 
Delaware that are among the most burdened in the Nation.
    Senator Coons. Thank you, both.
    Senator Boozman. Senator Lankford.

                            WORKLOAD TRENDS

    Senator Lankford. Thank you.
    I have several questions here. One is, I have noticed some 
of the numbers and the trends here. Civil filings grew by about 
4 percent. Criminal filings have fallen 11 percent. So help me 
understand the trend that is happening here, and what do you 
attribute that to? Is that affecting your judges and placements 
and their workloads?
    Judge Gibbons. No. Fluctuating filings are a fact of life 
for us. In the criminal area, they are very much affected by 
both prosecution policies of the Department of Justice and also 
by resources available to the Department of Justice.
    In the civil area, external events tend to drive civil 
filings--trends in personal injury, product liability cases, 
the economy. I mean, there are just all kinds of things, and we 
are accustomed to dealing with that. But we do take filings 
into account in calculating both our judgeship needs and our 
staffing needs.
    Senator Lankford. Okay. Tell me the trends in filings right 
now in drug-related cases and immigration-related cases.
    Judge Gibbons. Well, I am not sure that I have information 
with me broken down by type of filing. If I do, probably the 
staff will pull my coat. But we can, certainly, provide that to 
you for the record.
    Senator Lankford. Okay.
    Tell me about some of the vacancy areas.
    Judge Gibbons. I do think that the immigration filings are 
down. I am not sure I know about the drug filings.
    Senator Lankford. Yes, it is my understanding that both of 
them are actually down fairly significantly. I was trying to 
figure out the trend and the reason for that.
    Judge Gibbons. Well, I don't know, because it is within the 
Department of Justice. And I, certainly, don't speak for them.
    On the other hand, the two factors I mentioned are 
typically the things that drive criminal filings, policy plus 
resources. Of course, the Justice Department was under 
sequestration, as we were.
    [Clerk's note.--Subsequent to the hearing, Judge Gibbons 
provided the following additional information:]

    The table below provides criminal defendants by major offense type 
for 2010 through 2014 based on the Judiciary's statistical tables. The 
number of criminal defendants in Federal court is determined by the 
prosecutorial policies of the Department of Justice. Questions 
regarding increases or decreases in the number of defendants 
prosecuted, or changes in prosecutions for a particular offense type 
can best be answered by the Department of Justice.

                            Criminal Defendants by Major Offense Type, 2010-2014 \1\
----------------------------------------------------------------------------------------------------------------
                         Offense Type                             2010      2011      2012      2013      2014
----------------------------------------------------------------------------------------------------------------
Drug Offenses.................................................    29,660    31,134    30,653    29,141    26,354
Immigration Offenses..........................................    29,242    28,676    26,056    24,476    22,160
Property Offenses.............................................    17,146    17,526    15,957    14,733    13,708
Firearms Offenses.............................................     8,474     8,433     8,990     8,402     7,726
Sex Offenses..................................................     2,825     3,384     3,422     3,450     3,425
Traffic Offenses..............................................     4,105     4,609     3,486     3,229     2,914
Violent Offenses..............................................     2,888     2,791     2,734     2,822     2,721
General Offenses..............................................     2,218     2,609     2,242     2,330     1,977
Regulatory Offenses...........................................     2,055     2,137     2,125     2,013     1,949
Justice System Offenses.......................................       993       967       927       936       845
                                                               -------------------------------------------------
      Total...................................................    99,606   102,266    96,592    91,532    83,779
----------------------------------------------------------------------------------------------------------------
\1\ Reflects statistics for criminal defendants for the 12 months ending June 30 for the years shown.

                          JUDGESHIP VACANCIES

    Senator Lankford. Of the openings there and the vacancies, 
we have nine individuals who are in the Court of International 
Trade. We have four vacancies in the Court of International 
Trade. How are they operating and functioning at this point?
    Mr. Duff. May I just double back?
    Senator Lankford. Sure.
    Mr. Duff. Another expansion to the answer on your previous 
question is that sequestration did have an impact on the number 
of U.S. attorneys, so that had impact on the caseload as well.
    Senator Lankford. So the vacancies in the Court of 
International Trade, four vacancies there. How significant is 
that to their basic operation? That is a pretty large 
percentage.
    Mr. Duff. Well, it is significant. I think one of the 
things that we have done well within the judiciary is we have 
been honest brokers, if you will, where there are needs. If a 
vacancy occurs in a district, for example, where the workload 
does not justify the extension or filling of that vacancy, we 
have been candid with the Congress about that in the 
appropriations process and throughout.
    If, however, a vacancy occurs where the workload demands 
the filling of the vacancy or the creation of new judgeships, 
which we have come to the subcommittee with from time to time, 
we do so.
    So a drop-off of four in that particular court is 
significant, and it would have an impact on how they deliver 
their work.
    [Clerk's note.--Subsequent to the hearing, Judge Timothy 
Stanceu, Chief Judge of the U.S. Court of International Trade, 
provided the following additional information:]

    As Senator Lankford correctly states, there are nine authorized 
judgeships on the Court of International Trade and there are currently 
four vacancies. One nomination is pending in the Senate. The Court is 
addressing workload needs with the assistance of its senior judges who 
have left active status but continue to take cases. This, however, can 
be only a temporary solution pending the filling of vacancies on the 
Court.

                        DISTRICT COURT WORKLOAD

    Senator Lankford. So, which district would you say has the 
lowest caseload at this point, as far as number of cases that 
are before them? You mentioned the one that is high. You 
mentioned some that have up to 800 cases a year. What is our 
low-end?
    Mr. Duff. I would have to get that number to you. I don't 
know off the top of my head for a particular court, a 
particular judge.
    Senator Lankford. Or just a particular district.
    Mr. Duff. A particular district. I don't know the low-end, 
the lowest.
    Judge Gibbons. I don't know either, and I hesitate to 
mention particular areas. I mean, I know historically where 
some of the lowest areas are, but I would be hesitant to 
identify them. Those judges would be squealing if I happened to 
be wrong in light of the exact situation today.
    [Clerk's note.--Subsequent to the hearing, Judge Gibbons 
provided the following additional information:]

    In fiscal year 2014, the five Federal judicial districts with the 
lowest weighted filings per judgeship are Vermont (241), District of 
Columbia (232), New Hampshire (228), Wyoming (189), and Alaska (158). 
The national median weighted filings per judgeship in fiscal year 2014 
was 415.

                        EVIDENCE-BASED PRACTICES

    Senator Lankford. We will try to pull that.
    You had mentioned, Judge Gibbons, a statement in your 
written testimony where you talked about reducing offender 
recidivism. You talked about evidence-based offender 
supervision practices increasing recidivism rates.
    Can you give me an example of that? You implied you are 
having some success in that area, and that is great. What are 
tactics? What is happening? And what are you doing to 
accomplish that?
    Judge Gibbons. It is interesting what evidence-based 
practices are. Our recidivism rate has been lower historically 
in the Federal system, even prior to our implementation of 
these techniques, than say it is in State systems. For us, it 
is about 30 percent. In State systems, it has been up to 70 
percent or thereabouts.
    Senator Lankford. So States are saying 70 percent. Federal, 
around 30 percent.
    Judge Gibbons. Right. For us, about 30 percent reoffending.
    But the impact of evidence-based practices, supervision 
historically has been based on visits, keeping up with 
offenders, and counseling. There are some practices, which have 
been validated by empirical studies, that show that in addition 
to those longstanding techniques, it can be very effective for 
probation officers to be trained in techniques that help 
interrupt and change the cognitive thought processes.
    Senator Lankford. That is what I was asking.
    Judge Gibbons. For example, we are trying to break patterns 
of destructive behavior that drive offenders back into 
associations with people they shouldn't be associating with, 
that interfere with their obtaining and maintaining employment, 
all the things that you can think of, the attitude things that 
you can think of that shape an individual's success in life.
    Now, I haven't been to evidence-based training, so I can't 
tell you how a probation officer would go about doing that. But 
this is what that training is specifically designed to address, 
so that an officer knows how to work with an individual to, 
let's put it in lay terms, to get them to shape up and do 
right, as far as attitude.
    [Clerk's note.--Subsequent to the hearing, Judge Gibbons 
provided the following additional information:]

    The Judiciary's Staff Training Aimed at Re-Arrest Reduction (STARR) 
program involves exercises and instructions designed to alter the 
dysfunctional thinking patterns exhibited by many offenders and 
improves the quality and nature of the relationship between the 
offender and the officer. STARR builds on officers' existing 
communication skills, use of authority, and ability to impart cognitive 
restructuring strategies to offenders. For example, in applying the 
principles of STARR in interacting with an offender, an officer would 
utilize skills that help the offender identify dysfunctional thinking 
patterns and criminogenic life style issues, such as anti-social peers 
and substance abuse, that contribute to their proclivity to re-offend. 
Over the series of many interactions, the offender will learn and 
practice strategies to manage high risk situations, that in the past, 
have led to undesirable behavior and that interfere with the offender's 
personal life goals. Where appropriate, the officer will utilize proven 
negative and positive reinforcement techniques, and other techniques 
such as active listening that enhance the quality of the officer-
offender interactions.

    Senator Lankford. Thank you.
    I yield back.

                         FILINGS PER JUDGESHIP

    Mr. Duff. Senator Lankford, if I could just double back on 
one of your questions as well. Just to put in perspective what 
an 800-case per judge workload is like, new judgeships in our 
formula are requested when there are 430 cases for a judge. So 
a judge carrying 800 cases is basically doing the work of two 
judges.
    Judge Gibbons. And the low caseload districts would be down 
into the 200 or even a bit below that range, perhaps. Something 
like that.

              RETROACTIVITY OF SENTENCING GUIDELINE CHANGE

    Senator Boozman. Let me ask just one more question, and if 
Senator Coons has a question, and Senator Lankford, if you 
would like.
    The U.S. Sentencing Commission recently revised their 
sentencing guidelines to include the future and also going back 
in the past to those that are currently incarcerated.
    How will reduced sentences impact the workload of the 
courts? What are you doing to prepare for that?
    Judge Gibbons. Well, pretty significantly. Of course, that 
sort of thing requires extra work for judges and for court 
staff, but that is not where we worry. Where we worry is about 
the impact on probation officers.
    Probation officers, although the name is kind of a bit of a 
misnomer, they supervise an increasingly dangerous and high-
risk population. So when they are not supervised adequately, 
there is a public safety risk.
    We will need more probation officers to handle the workload 
that will be created by the releases of the offenders, which 
will begin after November 1 this year.
    But right now, we have funds available, thanks to this 
subcommittee's appropriation. We have funds available to begin 
putting those probation officers in place, which is important 
and very good, because probation officers require full FBI 
background reports and they require training. So you need a 
little bit lead time, so it is very, very fortunate.
    We are not asking for new staff for that, because we feel 
we have adequate funds now to do what we need to do.

                          REDUCING RECIDIVISM

    Senator Boozman. I appreciate that. I was interested in the 
question that Senator Lankford asked about reducing recidivism 
and things, evidence-based. This is almost the opposite of 
that.
    If you have a situation where you don't have the staff in 
place as you put people out on the street, if we don't do a 
good job in that regard, then that rate is going to go up 
dramatically, as we have seen perhaps in some States as they 
have done similar things but not provided adequate parole 
officers to actually implement. That is so important, as you 
said earlier, getting people to change their attitude and shape 
up and stay out of jail.
    Judge Gibbons. The $15 million we have requested for 
increased training for probation officers, some of our officers 
are trained in how to do this sort of supervision. Others fell 
behind because of the impact of sequestration. While we are 
continuing these efforts, in 2016 we are asking for $15 million 
more, to get as many of our officers trained in the practices 
demonstrated to bring the best results.
    Senator Boozman. Very good.
    Senator Coons.

                        EVIDENCE-BASED PRACTICES

    Senator Coons. Just if I could, a follow up on that. So of 
your 94 judicial districts, how long will it take before you 
complete training in the probation staff, the teams of all of 
them? $15 million won't allow you to accomplish all this in 1 
year, will it?
    Judge Gibbons. No, it will not. We believe we will have 
folks in most districts trained, but we cannot say we will have 
every officer in 94 districts trained. We don't believe that is 
going to happen.
    [Clerk's note.--Subsequent to the hearing, Judge Gibbons 
provided the following additional information:]

    The $15 million in the Judiciary's fiscal year 2016 budget request 
will not result in all 94 districts receiving STARR training, but it 
will facilitate the expansion of the program by preparing untrained 
officers in the currently involved districts (64) and allow some 
additional districts to participate in the training.
    Regarding implementation, we are prepared to move ahead immediately 
with expansion plans in fiscal year 2016 if funding is appropriated. 
The Administrative Office's Probation and Pretrial Services program has 
identified at least two commercial off-the-shelf programs that would 
provide officers with a foundation needed for the STARR program. We 
have already selected regional STARR coaches who will work with each 
STARR-trained district and can travel there to assess implementation 
and provide any necessary booster training that is needed. An internal 
group was convened to outline contracting procedures for districts to 
begin the development of resources for officers and treatment 
providers.

                   INVESTMENTS FOR LONG-TERM SAVINGS

    Senator Coons. There are a couple places in your opening 
comments, you stated that there are places where we need to 
make investments in order to save money. We talked a little bit 
about how restructuring some of the courthouses would allow you 
to actually reduce space, but you have to invest money in 
rebuilding and reorienting the space.
    Here we are talking about investing money in training 
probation officers so that you have fewer recidivism incidents, 
so you have fewer repeat offenders.
    Anything else you wanted to emphasize before we close in 
places where your investment in IT or courthouse security, for 
example, or, frankly, in rehiring career public defender staff 
rather than relying solely on panel attorneys, any other areas 
where you might save money in the long-term by making a short-
term investment that is in this proposal?
    Judge Gibbons. Let me try to chip away at several of those 
as quickly as possible.
    In the defender area, there are a number of reasons 
defenders have been slow to hire up. We have funds available 
for them to get back to near pre-sequestration levels in 2015. 
So they are hiring at this point, but we think we will be 
there, we hope, by the end of this year.
    Another area of investment for us would be the $19 million 
we are requesting for enterprise hosting and IT. We need to do 
that internally because of security concerns. The $19 million 
is a beginning. I can't give you a net cost-benefit analysis, 
but ultimately, that promises to bring savings to local courts 
that will not have to maintain their own systems in the way 
that they do today.
    I am trying to think if I have neglected anything that is a 
savings down the road, but that is what I am thinking of at 
this time.
    I might double back and say one sentence about something 
that I should have covered earlier. You had asked me previously 
about the split in judges versus staffing, space reductions. It 
is about 55 percent, 45 percent, many more staff than judges. 
But the reason that 45 percent of the burden has been borne by 
judges is because of our efforts to close nonresident and other 
facilities.
    [Clerk's note.--Subsequent to the hearing, Judge Gibbons 
provided the following clarification:]

    Approximately 55 percent of the Judiciary's space inventory is 
comprised of chambers and courtrooms and the remaining 45 percent is 
for clerks of court offices, probation and pretrial services offices, 
and libraries. The Judiciary's 3 percent space reduction target by the 
end of fiscal year 2018 will focus on reducing space where feasible and 
practicable, however, space reduction will not necessarily be 
accomplished in proportion to the current 55 percent/45 percent split 
of chambers and courtroom space to other Judiciary space.

    Senator Coons. Thank you both very much. I appreciate it.
    Senator Boozman. I want to thank all of the people that 
participated in preparing the hearing today. Our staff on both 
sides work really hard very hard to do that, so we appreciate 
that.
    We thank you for your testimony today about a number of 
really important issues. We thank you for your frankness and 
really feel like this will be very, very helpful as we go 
forward in trying to prepare the 2016 funding.
    At this time, I ask unanimous consent that a letter from 
the Federal Bar Association in support of the judiciary's 
fiscal year 2016 budget request be included in the record.
    [The information follows:]
           Prepared Statement of the Federal Bar Association
                                                    March 23, 2015.

 
 
 
Hon. John Boozman, Chairman           Hon. Christopher A. Coons, Ranking
Appropriations Subcommittee on         Member
 Financial Services and General       Appropriations Subcommittee on
 Government                             Financial Services and General
United States Senate                    Government
Washington, DC 20510                  United States Senate
                                      Washington, DC 20510
 


Re: Fiscal Year 2016 Funding Request of the Federal Judiciary

Dear Chairman Boozman and Ranking Member Coons:

    We write to express strong support for the Federal judiciary's 
fiscal year 2016 budget request. The request equals $7.0 billion in 
discretionary appropriations, and increase of 3.9 percent over the 
fiscal year 2015 enacted level. The request also includes $571.1 
million in mandatory appropriations. We urge the Congress to make these 
funds available to assure the Federal courts are able to fulfill their 
constitutional and statutory responsibilities.
    Our Association's membership of over 16,000 attorneys represents a 
major constituency of the Federal court system. Our members witness the 
daily need for adequate funding for the Federal courts. Their clients, 
whether defendants or plaintiffs, enter the courts in civil and 
criminal disputes with the same expectations for the fair and prompt 
administration of justice.
    We are deeply appreciative of your subcommittee's past support for 
the Federal judiciary and your vigilance to assure that the necessary 
resources are made available to permit them to fulfill their 
responsibilities as a co-equal branch of Government. The funding that 
Congress made available to the Federal courts in fiscal year 2015 was 
vital in helping courts across the Nation to stabilize their financial 
position and operations after the devastating impact of sequestration. 
The judiciary's fiscal year 2016 request will maintain current services 
across the judiciary, continue the recovery and restoration of 
activities disrupted because of sequestration, and enable investment in 
important new or upgraded program initiatives to support judicial 
operations.
    We note that the judiciary's budget request fully funds the 
judiciary's Defender Services program, which provides court-appointed 
counsel to indigent defendants, and increases the non-capital panel 
attorney hourly rate from $128 to $134. The funding request also 
ensures that funds will be available for criminal and civil jury 
trials. For the first time since 1990, the judiciary's request provides 
for an increase in the daily juror attendance fee by $10, from $40 to 
$50.
    We ask your subcommittee to take into account the commendable 
actions taken by the judiciary to contain costs and implement more 
efficient ways to administer justice. Space reduction remains the 
judiciary's primary cost-containment initiative. Since 2013, the 
judiciary has proactively removed more than 242,000 square feet of 
space from its rent bill, representing an annual savings of $6 million.
    In addition, we support the judiciary's request for design and 
construction services funding for the Nashville, Tennessee Federal 
Courthouse, as included in the administration's budget request for the 
General Services Administration. Funding of this project would 
represent only the second approval of new Federal courthouse funding 
since 2010.
    Members of the Federal bar are committed to doing everything we can 
to continue to support the judiciary's efforts to assure the 
administration of justice good stewardship of taxpayer resources. Thank 
you for your consideration of our comments.
            Sincerely yours,
                                   Matthew B. Moreland,
                                           President.

    Senator Boozman. If there are no further questions, the 
hearing record will remain open until Tuesday, March 31, at 
noon, for subcommittee members to submit statements and 
questions to the witnesses for the record. We request responses 
to those questions be within 30 days.

                          SUBCOMMITTEE RECESS

    Senator Boozman. Again, thank you very much. And with that, 
the hearing is adjourned.
    [Whereupon, at 11:25 a.m., Tuesday, March 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
